<html>
<title> - AVIATION SAFETY: PILOT FATIGUE</title>
<body><pre>[Senate Hearing 111-515]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-515

                     AVIATION SAFETY: PILOT FATIGUE

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 1, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation










                  U.S. GOVERNMENT PRINTING OFFICE
54-497 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
             Ann Begeman, Acting Republican Staff Director
              Brian M. Hendricks, Republican Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

BYRON L. DORGAN, North Dakota,       JIM DeMINT, South Carolina, 
    Chairman                             Ranking Member
DANIEL K. INOUYE, Hawaii             OLYMPIA J. SNOWE, Maine
JOHN F. KERRY, Massachusetts         JOHN ENSIGN, Nevada
BARBARA BOXER, California            JOHN THUNE, South Dakota
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           MEL MARTINEZ, Florida
FRANK R. LAUTENBERG, New Jersey      GEORGE S. LeMIEUX, Georgia
MARK PRYOR, Arkansas                 DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           SAM BROWNBACK, Kansas
AMY KLOBUCHAR, Minnesota             MIKE JOHANNS, Nebraska
MARK WARNER, Virginia
MARK BEGICH, Alaska













                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 1, 2009.................................     1
Statement of Senator Dorgan......................................     1
Statement of Senator Lautenberg..................................     5
Statement of Senator LeMieux.....................................    27
Statement of Senator Klobuchar...................................    30
Statement of Senator Snowe.......................................    32

                               Witnesses

Margaret Gilligan, Associate Administrator for Aviation Safety, 
  Federal Aviation Administration................................     7
    Prepared statement...........................................     7
Basil J. Barimo, Vice President, Operations and Safety, Air 
  Transport Association of America, Inc..........................    11
    Prepared statement...........................................    12
Captain John Prater, President, Air Line Pilots Association, 
  International..................................................    14
    Prepared statement...........................................    15
William R. Voss, President and CEO, Flight Safety Foundation.....    19
    Prepared statement...........................................    20

                                Appendix

Cargo Airline Association, prepared statement....................    45
Ronald N. Priddy, President, National Air Carrier Association 
  (NACA), prepared statement.....................................    46
Captain Paul Onorato, President, Coalition of Airline Pilots 
  Associations, prepared statement...............................    47
Response to written questions submitted by Hon. John D. 
  Rockefeller IV to:
    Margaret Gilligan............................................    49
    William R. Voss..............................................    49

 
                     AVIATION SAFETY: PILOT FATIGUE

                              ----------                              


                       TUESDAY, DECEMBER 1, 2009

                               U.S. Senate,
 Subcommittee on Aviation, Operations, Safety, and 
                                          Security,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:14 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Byron L. 
Dorgan, Chairman of the Subcommittee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. We're going to call the hearing to order.
    This is a hearing of the Senate Commerce Committee, 
Subcommittee on Aviation. My colleagues will be joining me 
shortly, but I want to begin on time.
    The discussion today is on the subject of pilot fatigue. 
Now, let me describe my concern about this issue, and the 
concern of a number of my colleagues. The issue of pilot 
fatigue is not new. It has been on the National Transportation 
Safety Board's most-wanted list for 19 years, since the list 
was created. Pilot fatigue has consistently been an issue with 
the NTSB and the FAA. The current flight rules, I believe, have 
been in existence--with respect to duty time and so on, have 
been in existence for some 40 or 50 years without much change. 
The NTSB investigations have found that pilot fatigue was 
either the probable or the contributory cause of 20 air carrier 
accidents in the U.S., and has caused 273 fatalities between 
1989 and 2008. So, this is not some issue without substantial 
consequence.
    The NTSB's outstanding pilot-fatigue-related safety 
recommendation calls on the FAA to revise the flight- and duty-
time limitations to take into consideration research findings 
on fatigue and sleep issues.
    While the FAA also limits the amount of flight and duty 
time a pilot may work in a day--and these--as I said, these 
limits have existed for decades--commuting time, which is an 
increasing phenomenon in recent decades, is not factored into 
this requirement at all. And I'll talk just for a moment about 
that today.
    The stories that we have heard are fairly frightening. And 
I want to say, from the outset, my goal today is not to alarm 
the flying public, far from it. We have the safest skies in the 
world, in my judgment. But, the issue of pilot fatigue is 
serious and merits attention. While the skies are safe, they 
are not perfect. And the--two events that focused more recent 
attention on pilot fatigue--there was a Minneapolis overflight 
recently, an incident last month that has sparked much comment 
on how two pilots could have overflown their destination by 150 
miles. There was speculation that perhaps the pilots were 
asleep. The pilots indicated that they were working on 
electronic devices. No one, I guess, quite knows all of those 
answers at the moment.
    The second is, the tragic crash of Colgan Air flight 3407. 
We've held a couple of hearings that have discussed that at 
some length. The NTSB is still conducting its investigation 
into that tragic accident, and has yet to issue a report on the 
cause of the accident. But, we do know that both pilots 
commuted from across the country earlier that day, one from 
Florida and one from Seattle, to reach their duty stations in 
Newark.
    What I want to do is go through a few charts, if I might. 
And let me begin on the front side of this, with the first 
chart, talking about crew rest. These are just some things that 
most of you and I have heard and seen on investigative reports 
and official reports. This happens to be a Wall Street Journal 
article about fatigue. Tom Wychor, an 18-year veteran pilot, 
describing the routine of commuter flights with short layovers 
in the middle of the night, says, ``Take a shower, brush your 
teeth, pretend you slept.'' ``Take a shower, brush your teeth, 
pretend you slept.''
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Well, I don't know Mr. Wychor, but that kind of comment by 
somebody in the cockpit makes you question the issue of fatigue 
and whether we have done all that is necessary to make certain 
that fatigue is not a contributing factor to problems in the 
cockpit.
    Another pilot--and again, pilots, of course, are not in a 
position to be able to speak very effectively or very candidly 
about these things. This is an anonymous pilot of a 737 jet 
flying to Denver. NBC News was quoting the pilot, when 
discussing fatigue. The quote is, ``I have been doing 
everything in my power to stay awake--coffee, gum, candy. But, 
as we entered one of the most critical phases of flight, I had 
been up for 20 straight hours.'' Fatigue in the cockpit by that 
pilot? Perhaps.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    New York Times report on fatigue, ``By the time Captain 
Paul Nietz parked his aircraft at the last gate of the night, 
he was exhausted, but he would be due back to work 8 hours and 
15 minutes later.'' Quote ``At the very most,'' he said, ``if 
you're the kind of person that could walk into a hotel room, 
strip, and lay down, you might get 4 and a half hours of 
sleep.'' Fatigue? Seems to me, probably so. And I happened to 
have heard this sort of thing from a lot of pilots coming in 
late at night to an airport, and by the time--on a late 
flight--flying around, weather, and so on--by the time they get 
to their hotel and get some rest and are required to report 
back, the question of fatigue is a very real and a very serious 
question.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    I also wanted to discuss, just for a moment, the issue of 
commuting. I've showed this chart once before. This was the 
Colgan Air chart, Colgan Air pilots commuting to the Newark 
base. And this is a different issue than duty time, but you can 
see pilots commuting all across the country to the duty base. 
In this case, the tragedy that occurred in Buffalo, New York, 
the person flying in the right seat commuted all night long 
from Seattle, Washington, to Newark.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The next chart shows part of the product of commuting. This 
is a Washington Post report, ``A pilot watches a movie on his 
computer at a crash house in Sterling Park, Virginia. The 
houses, which can have up to 20 to 24 occupants at a time, are 
designed to give flight crews from regional airlines a quiet 
place to sleep near their base airports. Many can't afford 
hotels, so they use the crash house, where rent is generally 
$200 a month for a bed.''
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Incidentally, on this issue, I ran into a pilot, about 2 
weeks ago at an airport, a very young pilot, who told me that 
he had just started his career, but was now quitting. And I 
said, ``Why?'' And he said, ``Because I'm going to work for a 
city's police department, and my salary will be twice as much 
as my salary flying the commuter jet.'' And it relates to this 
question of, Why can't someone afford a hotel and, instead, 
uses crash pads as a part of their commuting across the 
country--in many cases, across the country--in order to reach 
their duty station?
    The FAA announced earlier this year that they are going to 
revise the flight- and duty-time rules. So, I'm glad they're 
here today to tell us about that work. The FAA Administrator 
Babbitt has said the agency plans to issue those new rules by 
the end of next year. And, given the history on this issue, I 
think it's important that they complete that work that was 
begun by soliciting the recommendations of an Aviation 
Rulemaking Committee. Another false start, and there have been 
several, would really, in my judgment, be unacceptable.
    I hope this hearing will bring some renewed focus to the 
issue of pilot fatigue, flight- and duty-time rules, and also, 
the issue of commuting. And I hope that we can take steps to 
remove fatigue as a factor in aviation safety.
    As I indicated when I started, there have been a fair 
number of accidents that the NTSB attributes to fatigue. With 
respect to commercial airlines, in my judgment, there's no room 
for fatigue in the cockpit. We need to have duty times, flight 
times and crew rest periods that are sufficient so that we are 
not running into that problem.
    Let me make one additional point. Some will make the case, 
I think, today--and perhaps in questions and answers we'll 
explore it more--there's a change in the way we fly in this 
country. A lot of smaller planes, smaller commercial airplanes, 
regional commuter planes that are up and down, up and down, up 
and down all day long. And the take-offs and the landings are 
the period where pilots, of course, are straining and--I 
should--``straining'' is not the right word--but paying a great 
deal of attention. There's no room for mistakes on take-offs 
and landings. And so, there's a lot of tension in the cockpit 
and a lot of attention paid to the way that airplane is being 
flown. And so, that also creates fatigue. And I think this 
hearing can be a catalyst, and hopefully will be helpful to the 
FAA and the NTSB, in trying once again to put all the 
spotlights on the same spot when it comes to this issue of 
fatigue in the cockpit.
    Mr. Lautenberg, let me call on you for a couple-of-minutes 
opening statement and then we'll begin with the witnesses.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks very much, Mr. Chairman.
    When we look at the details behind the questions that are 
being raised here now, it borders being shocking. Too much is 
demanded of our pilots. Too many hours on too little sleep, and 
operating complex machines with peoples' lives in their hands. 
The slightest tip in this risky balancing act can cause a 
disaster, as we saw on the Colgan flight number 3407. And I 
heard the Chairman's review of that matter and the stress that 
was on the copilot, and it's unfair to the individual. It 
certainly was disastrous for all of them, including the pilots, 
but the full airplane of travelers.
    And in this holiday season, planes are packed. The last 
thing a traveling family wants to worry about is a sleepy 
pilot. It's an invitation to disaster.
    Now, we have a great system. And it has been safe. But, I 
think we're nibbling at the margins and that just the courage, 
the response of a lot of well meaning people, has averted some 
significant miscues. And whether it was over the Hudson River, 
where two planes collided; one landed in the river--no area--
and this is turning, for a moment, away from the pilots--but, 
turning to the rules that the FAA lays down for pilot training. 
You wouldn't ask a brain surgeon to go--to take care of your 
need if he was up 8 hours doing surgery someplace else. And 
it's inappropriate with the system, with the value that we 
have, in our aviation system, that we should ask pilots, who 
make, in many cases, barely above the minimum wage. The 
national minimum wage is $15,000 a year. They have pilots who 
are going to work--$20,000 a year. The incident that you talked 
about, Mr. Chairman, with the fellow going to the police--to a 
police uniform because he was going to make that--so much more 
money. A private in the Army, makes $16,800 a year--private in 
the Army. And here we're asking someone who has a substantial 
amount of training in order to get as far as they do to get a 
commercial pilots license, and we're discarding what is fair 
and appropriate to keep that person in the best of condition. 
Athletes don't go out on the field without being ready to do 
it, or should not. And we see consequences of those incidents 
occurring.
    So, Mr. Chairman, it's the right thing to do. And we----
    Senator Dorgan. Senator Lautenberg----
    Senator Lautenberg. I thank you for holding this hearing.
    Senator Dorgan. Well, Senator Lautenberg, thank you for 
your attention to all these aviation issues. As we've held 
hearings, you've constantly come to these hearings and been 
very active, and I know that you've spent a lot of time on 
them. I appreciate that.
    Let me appreciate the witnesses being here.
    We are joined by Ms. Peggy Gilligan, the Associate 
Administrator for Aviation Safety at the FAA; Mr. Basil Barimo, 
the Vice President of Operations and Safety, the Air Transport 
Association; Captain John Prater, President of Air Line Pilots 
Association; and Mr. William Voss, President and CEO of Flight 
Safety Foundation.
    I--let me, as I call on Ms. Gilligan, say, in response to 
what Senator Lautenberg said, we should not have to learn the 
same lesson twice, or three or four or five times. We've been 
through this, this is--you know like Groundhog's Day--we've had 
discussion after discussion after discussion about fatigue. And 
they--the same has been true with the NTSB. And having it on 
the Most Wanted List for some 19 years is unacceptable. And I 
appreciate the fact that Administrator Babbitt is now in the 
process of taking action. We're going to hear that from Ms. 
Gilligan. But, this has to be a catalyst--this hearing has to 
be a catalyst for insisting at last--at long, long last, after 
some 40 years or so--that we take a hard look at this and make 
the changes that are necessary.
    Ms. Gilligan.

                STATEMENT OF MARGARET GILLIGAN,

          ASSOCIATE ADMINISTRATOR FOR AVIATION SAFETY,

                FEDERAL AVIATION ADMINISTRATION

    Ms. Gilligan. Thank you, sir. Chairman Dorgan and Senator 
DeMint, members of the Subcommittee, I'm pleased to be here 
today to discuss the FAA's efforts to mitigate pilot fatigue.
    As you know, the agency has been involved in revising the 
current regulations on flight and duty time for some time. And 
we are all frustrated by the amount of time we've spent. But, I 
can tell you that this time our efforts are different.
    Administrator Babbitt, himself a former commercial airline 
pilot, has made this a high priority issue for the FAA. In 
June, he chartered an Aviation Rulemaking Committee, comprised 
of labor, industry, and FAA representatives, to develop 
recommendations for a rule based on the current science of 
fatigue and a review of international approaches to this issue.
    The ARC was chartered to provide a forum for the U.S. 
aviation community to discuss the current science of fatigue, 
to discuss approaches to mitigating fatigue found in 
international examples, and to make recommendations to the FAA 
so that the United States could modify its regulations. The 18 
members of the ARC, representing airlines and union 
associations, were selected based on their extensive, direct 
operational experience and their commitment to address this 
safety risk. The ARC met for over 6 weeks, beginning July 7, 
and on September 10, the ARC delivered its final report to the 
FAA.
    The Administrator has committed to issue a Notice of 
Proposed Rulemaking early in 2010. But, this effort is a 
difficult and complicated effort, and it has taken longer than 
any of us wanted or expected. The events of the last 15 years 
are evidence of the complexity of the issue and the strong 
concerns of all the parties involved. Those concerns are clear 
in the current rulemaking process, as well. At the same time, 
our focused efforts since June demonstrates the high priority 
that Administrator Babbitt places on overcoming these 
challenges and updating these regulations to enhance safety. 
While we will need additional time to complete our analysis and 
make sure that we get it right this time, I am confident we 
will get there.
    Chairman Dorgan, Senator DeMint, members of the Committee, 
this concludes my remarks, and I would be happy to answer 
questions that you may have.
    [The prepared statement of Ms. Gilligan follows:]

 Prepared Statement of Margaret Gilligan, Associate Administrator for 
            Aviation Safety, Federal Aviation Administration
    Chairman Dorgan, Senator DeMint, members of the Subcommittee:

    Thank you for inviting me here today to discuss the Federal 
Aviation Administration's (FAA's) efforts to mitigate pilot fatigue. 
Administrator Babbitt, himself a former commercial airline pilot, has 
made this a high-priority issue for the agency. The FAA has always been 
a leader in advancing measures targeted at preventing or mitigating 
pilot fatigue through our sponsored research, dissemination of training 
and educational materials, and, most significantly, through our 
regulatory requirements. We believe that it is critical, whenever 
possible, to incorporate scientific information on fatigue and human 
sleep physiology into regulations on flight crew scheduling. Such 
scientific information can help to maintain the safety margin and 
promote optimum crew performance and alertness during flight 
operations. Our task is to translate that knowledge to the operational 
environmental in a sound and practical way. The complexity of our 
current pilot flight and rest regulations, with varying standards for a 
number of categories of aviation operations, developed through the 
years as the aviation industry grew, adopted more advanced technology, 
and employed diverse operational strategies.
    Preventing and mitigating the effects of fatigue is a shared 
responsibility that brings shared benefits in terms of increased 
safety, better working conditions and greater operational efficiencies. 
We at the FAA take our responsibility very seriously for investigating 
any threat to safety in the aviation system and establishing the 
regulatory framework to enhance the public's safety. To that end, we 
are engaged in an effort to revise and update our rules on pilot flight 
and rest, which I will describe in more detail below. At the same time, 
carriers have the responsibility to conduct their operations at the 
highest level of safety. That includes adopting appropriate scheduling 
practices that provide the pilot a clearly identified opportunity to 
rest. And, finally, pilots have the responsibility to take advantage of 
the opportunity for rest and report for their assignments well rested 
and ready for duty. We know that in the vast majority of cases, 
carriers and pilots act in a professional manner and take this shared 
responsibility seriously. We have a common goal to ensure that all 
aviation operations are conducted safely.
Current Regulations
    Current regulations place varying limits on the amount of time that 
a flight crewmember can fly (i.e. per day, week, month, quarter, and 
year), and require that a pilot be afforded a period of rest, free from 
obligation to the employer. Flight time limitations are based on the 
type of operation. For example, under current Part 121 rules, pilots in 
a two-pilot crew, on domestic flights, can generally fly up to 8 hours 
per day. Their workday can extend up to 16 hours, including time on the 
ground between flights. In addition, there are no restrictions on 
flying during the middle of the night or making numerous takeoffs and 
landings. In addition to daily limitations, these flight crewmembers 
are limited to 30 flight hours in any 7 consecutive days.
    Flight crewmembers engaged in part 121 flag operations 
(international passenger flights), are limited to 32 flight hours in 
any 7 days. Part 121 supplemental operations (typically cargo, on-
demand or charter operations) have no 7 consecutive day limitations. 
Flight crewmembers serving in part 121 domestic or flag operations are 
limited to 100 hours per calendar month while flight crewmembers 
serving in supplemental operations are limited to 100 flight hours in 
any 30 consecutive days.
    These differing regulations for different types of operations are 
inconsistent and complex, and can be easily misunderstood, especially 
when a pilot can be assigned to different types of operations. The 
different rules developed over time, as the aviation industry changed 
and expanded. While such variance in the rules may have been justified 
when they were first adopted, these differences may no longer be valid 
in today's operational environment. Our rulemaking will address this.
    Current rules also require that a pilot be afforded an adequate 
rest period. The ``crew rest'' elements of the regulation are designed 
to mitigate cumulative and acute fatigue, primarily through limitations 
on flight hours and defined hours of rest relative to flight hours. For 
example, the regulation for domestic operations outlines:

  <bullet> No more than 30 flight hours in any 7 consecutive days.

  <bullet> At least 24 hours of consecutive rest during any 7 
        consecutive days.

  <bullet> Varying rest requirements relative to hours flown in any 24-
        hour period.

    The rule also defines rest period activities and prohibitions, and 
provides provisions for circumstances under which flight time 
limitations can be exceeded, such as in adverse weather operations. As 
of late 2000, an FAA legal interpretation clarified that a pilot crew 
member, flying under domestic flight rules, must ``look back'' 24 hours 
and find 8 hours of uninterrupted rest before beginning any flight 
segment.
    Pilots also have a regulatory responsibility to not fly when they 
are not fit, including being fatigued. Thus, while the carrier 
schedules and manages pilots within these limitations and requirements, 
the pilot has the responsibility to rest during the periods provided by 
the regulations. The FAA has long held that it is the responsibility of 
both the operator and the flight crewmember to prevent fatigue, not 
only by following the regulations, but also by acting intelligently and 
conscientiously while serving the traveling public. This means taking 
into consideration weather conditions, air traffic, health of each 
flight crewmember, or any other circumstances (personal problems, etc.) 
that might affect the flight crewmember's alertness or judgment on a 
particular flight.
FAA Actions
    The FAA has initiated a number of fatigue mitigation efforts in 
recent years:

        1995 Proposal for Pilots: In 1995, the FAA proposed a rule to 
        change flight time and rest limits. The agency received more 
        than 2,000 comments from the aviation community and the public. 
        Most of those comments did not favor the rule as proposed, and 
        there was no clear consensus on what the final rule should say. 
        The FAA recently withdrew this proposed rule because it will be 
        superseded by the current rulemaking effort described below.

        1998 ARAC: In July 1998, the FAA Administrator asked the 
        Aviation Rulemaking Advisory Committee (ARAC) to work with the 
        industry to reach a consensus and develop a new proposal. If no 
        consensus could be reached, the FAA would continue to enforce 
        the current regulations. In February 1999, ARAC reported that 
        there was no consensus in the aviation community. The group 
        offered five different proposals to update the flight and rest 
        regulations.

        1999 Federal Register Notice: In response to concerns raised by 
        the pilot community, the FAA Administrator notified the 
        aviation community on June 15, 1999, that it had 6 months to 
        ensure that it was in full compliance with the agency's current 
        flight time and rest requirements. Reviews of airline 
        scheduling practices conducted in December 1999, and 
        discussions with pilot unions and airlines confirmed that the 
        vast majority of pilots were receiving the amount of rest 
        required by the FAA's rule.

        2000 FAA letter: On November 20, 2000, the FAA responded to a 
        letter from the Allied Pilots Association that set forth 
        specific scenarios that could affect a very small number of all 
        commercial pilots. The FAA's response, known as the ``Whitlow 
        Letter,'' was consistent with the agency's long-standing 
        interpretation of the current rules. In summary, the FAA 
        reiterated that each flight crewmember must have a minimum of 8 
        hours of rest in any 24-hour period that includes flight time. 
        The scheduled flight time must be calculated using the actual 
        conditions on the day of departure regardless of whether the 
        length of the flight is longer or shorter than the originally 
        scheduled flight time.

        2001 Federal Register Notice: The FAA published a notice in the 
        Federal Register on May 17, 2001, to reiterate its long-
        standing interpretation of its pilot flight time and rest 
        rules. The notice informed airlines and flight crewmembers of 
        the FAA's intent to enforce its rules in accordance with the 
        Whitlow letter interpretation. Each flight crewmember must have 
        a minimum of 8 hours of rest in any 24-hour period that 
        includes flight time. That calculation must be based on the 
        actual conditions on the day of departure regardless of whether 
        the length of the flight is longer or shorter than the 
        originally scheduled flight time. The FAA did not anticipate 
        that the notice would result in major disruptions to airline 
        schedules. It stated that, beginning in November 2001, the FAA 
        would review airline flight scheduling practices and deal 
        stringently with violations that came to light.

        2001 ATA/RAA Request: The FAA denied requests made on June 12, 
        2001, on behalf of the Air Transport Association (ATA) and 
        Regional Airline Association (RAA) to stay all agency action 
        regarding the November 20, 2000, Whitlow letter of 
        interpretation and the May 17, 2001, Federal Register notice of 
        the FAA's enforcement policy regarding pilot flight time and 
        rest. The FAA's letter and Federal Register notice were 
        consistent with the agency's long-standing interpretation of 
        the current rules. The documents were consistent with the 
        statutory mandate to issue rules governing the maximum hours or 
        periods of service, the use of plain language in regulations 
        and the regulatory history of the rules. ATA subsequently 
        petitioned for review of the Whitlow letter and the enforcement 
        policy.

        On Sept. 5, 2001, the U.S. Court of Appeals for the District of 
        Columbia granted a motion by the ATA to stay the May 17, 2001, 
        Federal Register notice. On May 31, 2002, the court denied 
        ATA's petition for review, ruling in favor of the FAA. As a 
        result, the FAA has continued to enforce the current 
        regulations consistent with the Whitlow letter.

        2008 FAA Fatigue Symposium: In June 2008, the FAA sponsored the 
        Fatigue Symposium: Partnerships for Solutions to encourage the 
        aviation community to proactively address aviation fatigue 
        management issues. Participants included the National 
        Transportation Safety Board, the Institutes for Behavior 
        Resources, Inc., and many of the world's leading authorities on 
        sleep and human performance. The symposium provided attendees 
        with the most current information on fatigue physiology, 
        management, and mitigation alternatives; perspectives from 
        aviation industry experts and scientists on fatigue management; 
        and information on the latest fatigue mitigation initiatives 
        and best practices.

        Ultra Long-Range Flights: In 2006, the FAA worked with Delta 
        Air Lines to develop and approve fatigue mitigation for flights 
        between John F. Kennedy International Airport and Mumbai, 
        India. The flights were operated for more than 16 hours with 
        four pilots provided that the airline followed an FAA-approved 
        plan to manage rest and mitigate the risk posed by fatigue. The 
        mitigation, approved as an Operations Specification issued to 
        Delta Air Lines, was specific for that city pair. Although that 
        specific route is no longer flown by Delta, the FAA viewed 
        Delta's fatigue mitigation strategy as a model program.

    As a result of Delta's efforts, the FAA proposed in November 2008, 
to amend Delta, American, and Continental's Operations Specifications 
to incorporate fatigue mitigation plans for their ultra long-range 
flights. Based on comments received from the three air carriers, the 
FAA withdrew the proposed amendments on March 12, 2009. The FAA is 
currently working with airlines to gather data that will help the 
agency enhance the safety requirements for ultra long-range flights. 
The agency believes that it is in the best interest of passenger and 
crew safety for airlines to use an FAA-approved fatigue mitigation 
program to reduce the risk of pilot fatigue.
Rulemaking Underway
    In June 2009, the FAA chartered the Flight and Duty Time 
Limitations and Rest Requirements Aviation Rulemaking Committee (ARC) 
comprised of labor, industry, and FAA representatives to develop 
recommendations for an FAA rule based on current fatigue science and a 
thorough review of international approaches to the issue. The ARC was 
chartered to provide a forum for the U.S. aviation community to discuss 
current approaches to mitigate fatigue found in international standards 
and make recommendations on how the United States should modify its 
regulations. The ARC consisted of 18 members representing airline and 
labor associations. The members were selected based on their extensive 
certificate holder management and/or direct operational experience.
    Specifically, the FAA asked the ARC to consider and address the 
following:

        1. A single approach to addressing fatigue that consolidates 
        and replaces existing regulatory requirements for Parts 121 and 
        135.

        2. Generally accepted principles of human physiology, 
        performance, and alertness based on the body of fatigue 
        science.

        3. Information on sources of aviation fatigue.

        4. Current approaches to address fatigue mitigation strategies 
        in international standards.

        5. The incorporation of fatigue risk management systems (FRMS) 
        into a rulemaking. An FRMS is a data-driven process and 
        systematic method to monitor and manage safety risks associated 
        with fatigue-related error.

    The ARC met over a 6-week period beginning July 7, 2009. Early on, 
the FAA told the ARC members that it was very interested in the ARC's 
recommendations, but that the agency retained the authority and 
obligation to evaluate any proposals and independently determine how 
best to amend the existing regulations. The agency reiterated that 
participation on the ARC in no way precluded them from submitting 
comments critical of the NPRM when it was published. On September 10, 
2009, the ARC delivered its final report to the FAA.
    We cannot discuss further particulars of the FAA's rulemaking 
efforts at this time, however, we are working as quickly as possible to 
complete a draft Notice of Proposed Rulemaking (NPRM).I will readily 
acknowledge that this effort has been difficult, and has taken us 
longer than we wanted or expected. The events of the last 15 years 
evidence the complexity of the issue and the strong concerns of the 
parties involved, and those are clear in the current rulemaking as 
well. At the same time, our focused effort since June demonstrates the 
high priority that Administrator Babbitt and I, along with the rest of 
the FAA team, place on overcoming these challenges and updating these 
regulations to enhance safety. I am confident we will get there.
    Chairman Dorgan, Senator DeMint, members of the Subcommittee, this 
concludes my prepared remarks. I would be happy to answer any questions 
that you might have.

    Senator Dorgan. Ms. Gilligan, we will have a lot of 
questions, so I appreciate your being here and your testimony.
    Ms. Gilligan. Thank you, sir.
    Senator Dorgan. Mr. Basil--is it ``Barreemo''?
    Mr. Barimo. Yes, that's correct.
    Senator Dorgan. Mr. Basil Barimo, Vice President of 
Operations and Safety, Air Transport Association. You may 
proceed.
    Let me say, to all four of you, that your entire statements 
will be made a part of the permanent record and you may 
summarize.

                 STATEMENT OF BASIL J. BARIMO,

             VICE PRESIDENT, OPERATIONS AND SAFETY,

           AIR TRANSPORT ASSOCIATION OF AMERICA, INC.

    Mr. Barimo. Thank you. Good morning. I am Basil Barimo, 
Vice President of Operations and Safety of the Air Transport 
Association of America.
    Mr. Chairman, members of the Subcommittee, I appreciate the 
opportunity to join you this morning as you consider the impact 
of pilot fatigue on aviation safety. This important subject 
demands a collaborative, thorough, and science-based response.
    ATA participated in the ARC that Ms. Gilligan mentioned. It 
was a productive effort, but we must all recognize that the ARC 
operated under significant time constraints. It wrapped up its 
work in a 6-week period. Consequently, we may expand upon the 
views that we expressed in the ARC and that I'll outline this 
morning.
    We support a duty-day regulation designed to account for 
fatigue risks, including circadian cycles, time awake, time on 
task, and acclimation to time zones. Our goal is to mitigate 
fatigue risk by reducing the duty time of pilots, expanding 
scheduled rest opportunities to ensure adequate rest, and 
increasing pilots' awareness of fatigue risk in their personal 
role in mitigating that risk. As in other aviation safety 
efforts, success here will depend on data-driven analyses and 
rigor in translating those analyses into regulatory action.
    The recommendations that we, in conjunction with the Cargo 
Airline Association and the Regional Airline Association, 
provided to the ARC were divided into substantive and 
procedural considerations.
    We had five substantive issues:
    First, we recommended that any new regulation establish a 
minimum of 10 hours scheduled rest, before the beginning of a 
flight period, at a domestic station and 12 hours at an 
international station. And we went on to suggest that 
additional detailed rest requirements were appropriate for 
certain international flights.
    Second, any new regulation should require each air carrier 
to adopt an FAA-approved fatigue mitigation program. An 
advisory circular could provide guidance in the necessary 
flexibility to update fatigue mitigation programs as we gain 
experience.
    Third, we urge that any new regulation account for the wide 
variety of operational environments, just as the current 
regulation does. These include domestic and international 
passenger operations, as well as cargo operations, and on-
demand charter operations. Science-based principles, 
judiciously blended with decades of operational experience, 
will allow the various air carrier models to continue to 
operate safely.
    Fourth, there also needs to be a focus on the individual in 
the regulations. Regulatory language should clearly prescribe 
the responsibility of the crew member to properly prepare him- 
or herself for flight. No fatigue policy, without such an 
admonition, can be regarded as comprehensive.
    And fifth, the FAA should endorse controlled cockpit 
napping, conducted in accordance with FAA-approved procedures, 
to facilitate alertness during the critical phases of flight. 
Previous NASA research has shown, overwhelmingly, that 
controlled napping significantly mitigates fatigue risk.
    On the procedural side, we had three issues:
    We're particularly concerned about the ultimate scope of 
any proposed regulation. Extraneous consideration should not 
burden our efforts to improve aviation safety. A rulemaking 
proceeding is not the forum in which to resolve collective-
bargaining issues.
    Second, we are also concerned about the effect of proposed 
duty and rest regulations on managers, who are also qualified 
as line pilots. If time spent on administrative duties, such as 
checking e-mail or making a phone call, count as duty, we risk 
losing line-qualified pilot managers. These pilot managers have 
played an essential role in safe airline operations, and the 
consequence of this rule on those management positions must be 
carefully considered.
    And finally, as with any major regulatory change, covered 
parties will need time to implement new policies requiring 
programming and training. That is particularly so here, where 
crew schedules will be impacted. We therefore ask that FAA 
provide a transition period of at least 2 years after the 
regulation is published.
    ATA members are committed to using the best science 
available, combined with proven operational experience, to 
better manage pilot fatigue. We look forward to working with 
the Committee, the FAA, and other stakeholders in this 
endeavor.
    That concludes my statement, and I look forward to your 
questions. Thank you.
    [The prepared statement of Mr. Barimo follows:]

        Prepared Statement of Basil J. Barimo, Vice President, 
   Operations and Safety, Air Transport Association of America, Inc.
    The Air Transport Association of America appreciates this 
opportunity to discuss pilot duty time and fatigue management issues 
with the Subcommittee. This important subject demands a collaborative, 
thorough and science-based response.
    ATA participated in the FAA Flight and Duty Time Limitations and 
Rest Requirements Aviation Rulemaking Committee (``the ARC''). That was 
a productive effort but we all must recognize that the ARC operated 
under significant time constraints. In any future rulemaking 
proceeding, consequently, we may expand upon the views that we 
expressed in the ARC and that are outlined below.
    We support a duty-day regulation designed to account for fatigue 
risks, including circadian cycles, time awake, time on task and 
acclimation to time zones. Our goal is to mitigate fatigue risk by:

  <bullet> reducing the duty time of pilots,

  <bullet> expanding scheduled rest opportunities to ensure adequate 
        rest, and

  <bullet> increasing pilots' awareness of fatigue risk and their 
        personal role in mitigating that risk.

    As in other aviation-safety undertakings, success here will depend 
on data-driven analyses and rigor in translating those analyses into 
regulatory action.
    The recommendations that we, in conjunction with the Cargo Airline 
Association and the Regional Airline Association, provided to the ARC 
were divided into substantive and procedural considerations.
Substantive Issues
    With respect to substantive issues, we recommended that any new 
regulation establish a minimum of 10 hours of scheduled rest before the 
beginning of a flight-duty period at a domestic station and 12 hours of 
scheduled rest at an international station, with the possibility of a 
reduction of 1 hour in actual operations. We suggested additional, 
detailed rest requirements for certain international flights.
    Any new regulation should require each air carrier to adopt an FAA-
approved fatigue mitigation program documenting its mitigation policies 
and training. Detailed means of compliance should be provided in an 
accompanying FAA-issued Advisory Circular. Use of an AC will provide 
the necessary flexibility to update airline fatigue mitigation programs 
as we build on future experience.
    Different air carrier operational environments must be recognized. 
These include domestic and international passenger operations, domestic 
and international cargo operations, and on-demand (nonscheduled) 
charter operations. We strongly urge that any new regulation account 
for the wide variety of operations, just as it does today. Nothing in 
fatigue and sleep research justifies a one-size-fits-all approach. 
Science-based principles, judiciously blended with many years of 
operational experience, will allow the various air carrier models to 
continue to operate safely.
    There also needs to be a focus on the individual in the 
regulations. Regulatory language should clearly prescribe the 
responsibility of the crew member to properly prepare himself for a 
flight. No fatigue policy without such an admonition can be regarded as 
comprehensive. Such language will also help address the pilot commuting 
issue.
    The FAA should also endorse controlled cockpit napping conducted in 
accordance with FAA-approved procedures to facilitate alertness during 
the critical phases of flight. Previous NASA research provides 
overwhelming evidence that controlled napping significantly mitigates 
fatigue risk. We must act on that evidence.
Procedural Issues
    We are particularly concerned about the ultimate scope of any 
proposed regulation. Extraneous considerations should not burden our 
efforts to improve safety. In particular, a rulemaking proceeding is 
not the forum in which to resolve collective bargaining issues.
    We are also concerned about the effect of proposed duty and rest 
regulations on managers, who are also qualified as line pilots. If time 
spent in administrative duties counts as ``duty'' for cumulative 
purposes, or if a management pilot cannot have the discretion to check 
e-mail or use the telephone during a scheduled rest period, the 
possible result could be the end of line-qualified pilot managers, 
chief pilots or directors of operations. Since the beginning of 
commercial aviation, these pilot managers have played an essential role 
in safe airline operations, and the consequence of this rule on those 
management positions must be carefully considered. We recognize, of 
course, the need for appropriate rest prior to flight. This might be 
more appropriate for inclusion in a fatigue mitigation advisory 
circular.
    Finally, as in any major regulatory change, covered parties will 
need time implement new policies requiring programming and training. 
That is particularly so here where crew schedules will be affected. We, 
therefore, ask that the FAA provide a transition period of at least 2 
years after the final regulation is published.
Conclusion
    ATA members are committed to using the best science available 
combined with proven operational experience to improve pilot duty time 
and fatigue management. We look forward to working with the Committee, 
the FAA and other stakeholders in this important endeavor.

    Senator Dorgan. Mr. Barimo, thank you very much. We 
appreciate your testimony.
    Captain Prater--I think I called you Captain ``Pratter.'' I 
didn't mean that--Captain Prater, welcome. You may proceed.

         STATEMENT OF CAPTAIN JOHN PRATER, PRESIDENT, 
           AIRLINE PILOTS ASSOCIATION, INTERNATIONAL

    Mr. Prater. Thank you. Chairman Dorgan, Ranking Member 
DeMint, members of the Subcommittee, thank you for having us 
here today to represent the views of the more than 53,000 
members of the Air Line Pilots Association, International.
    Pilot fatigue has loomed as a safety issue for our unions 
since it was founded in 1931. During the difficult years 
following 9/11, these long standing concerns have intensified 
with bankruptcy, concessionary contracts, and the layoff of 
thousands of pilots, forcing many of those who are still 
working to fly longer hours and more grueling schedules. It is 
a dire situation that I have experienced in my own cockpit.
    Just one example from several years back: Flying on the 
backside of a 5-day trip that took me from Newark to Japan and 
back to Newark, my copilot and I were so fatigued from crossing 
and recrossing numerous time zones that we were barely able to 
stay awake to make a predawn landing during a stop in Honolulu. 
At that time, I was in command of a 767 with over 240 
passengers onboard. While this segment was legal to fly with 
only two pilots because it was a few minutes short of the 8-
hour limit, it would have been far safer had we had the third 
pilot to augment the crew, as had been the case for every other 
leg of that specific trip. That would have allowed both me and 
my first officer to catch a couple-hour nap in the cabin.
    Current U.S. flight- and duty-time rules date from 1954, 
when the DC-3 was the state-of-the-art. Times and equipment 
have changed, but the rules have not. Since 1989, the National 
Transportation Safety Board has issued more than 70 fatigue-
related safety recommendations. Few would deny that modern, 
science-based regulations are urgently needed.
    From our view from inside the cockpit, a rule must be 
grounded on three basic tenets. One, it must be based on 
science. Two, it must apply equally to all flight operations. 
No exceptions, no carve-outs, no loop holes for air cargo or 
charter operations. Three, a new rule must allow and encourage 
air carriers to implement fatigue risk management systems, 
known as FRMS.
    During the past 60 years, scientists' understanding of 
sleep, fatigue, and human performance has grown significantly. 
Several recent studies have focused directly on aviation 
fatigue. This science, gained through field and simulator 
studies, confirms that current rules can lead to fatigue that 
impairs pilot performance. The 190-nation International Civil 
Aviation Organization, or ICAO, has mandated that flight 
limitation rules be based on scientific principles to ensure 
that flight crew members are well rested and alert. The United 
States is compelled to comply with this international standard. 
But, unfortunately, we don't, because the FAA current rules are 
not science-based.
    Second, one level of safety in flight- and duty-time 
regulations is absolutely essential. The current FAA flight-
time limit for passenger-carrying pilots is 30 hours in 7 days 
for domestic operations and 32 hours in 7 days for 
international flights. But, air cargo pilots can fly up to 48 
hours in a 6-day period, or 60 percent more than domestic 
passenger-carrying pilots. No science exists to support 
multiple sets of flight-time/duty-time limits. No rational 
argument can be made for different fatigue rules for pilots 
based on whether they fly passengers or cargo, domestic or 
international. ALPA maintains that uniform rules are 
indispensable if our industry is to truly address pilot 
fatigue. Exceptions or carve-outs would kill long overdue 
efforts to ensure all pilots are well rested. Worse, carve-outs 
would undermine the one level of safety principle that must 
remain our ultimate goal.
    Finally, the new regulation must enable carriers to 
transition to a fatigue risk management system, a 
collaborative, nonpunitive environment, where management and 
flight crews work together to ensure that crew members operate 
alertly and safely under all circumstances. It is also 
imperative that the FAA require air carriers to implement 
fatigue education and training programs for their crews, their 
managers, and their schedulers.
    I'm very encouraged that we finally appear to be on the 
verge of securing the modern, science-based flight- and duty-
time rules that we know are vital to enhancing aviation safety. 
ALPA will continue to do all we can to carry on this momentum. 
Seven ALPA pilots, representing all aspects of our industry, 
worked on the FAA's Aviation Rulemaking Committee. In October, 
our executive board unanimously approved new policy that 
reflects our values of science and the one level of safety for 
all. And it ensures our vision for ensuring pilots are well 
rested.
    We look forward to evaluating the FAA's proposed rule, and 
we applaud efforts to create a final rule by mid-next-year. The 
current regulatory framework is a fabric-and-wire biplane 
struggling to stay aloft in a supersonic age. I ask for your 
help in giving the flying public a new consistent level of 
safety by ensuring that every pilot in the United States starts 
every trip alert and rested.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Prater follows:]

         Prepared Statement of Captain John Prater, President, 
               Air Line Pilots Association, International
    Mr. Chairman and members of the Subcommittee, I am Captain John 
Prater, President of the Air Line Pilots Association, International 
(``ALPA'') which represents 53,000 professional pilots at 36 airlines 
in the United States and Canada.
    ALPA appreciates this opportunity to discuss pilot fatigue because 
we know that it is a significant flight safety issue. Pilot fatigue is 
as important to flight safety as metal fatigue, wiring insulation 
fatigue and other component fatigue.
    The FAA has a statutory responsibility to prescribe minimum 
standards to prevent all fatigue that impacts safety. While the agency 
has been responsive to other types of fatigue, the FAA has not yet 
fulfilled its responsibility regarding pilot fatigue.
    Pilot fatigue has been a major issue for ALPA since it was founded 
in 1931 and it has been particularly onerous during the difficult years 
since 9/11.
    The financial crisis in the airline industry has brought 
bankruptcies and concessionary contracts which have resulted in pilots 
being required to fly up to the legal limits without receiving adequate 
rest. We receive daily reports of scheduling that causes pilots to be 
virtual ``zombies.'' The domestic flight and duty rules were last 
amended in 1985 with the promise that the FAA would revisit these rules 
in 2 years. Twenty-five years later we are still waiting to review 
them.
    The current rules for International and Supplemental Operations 
were promulgated in 1954 when the DC-3 aircraft was state-of-the-art. 
At that time, it was not uncommon to carry a radio operator and 
mechanic on the aircraft. Today, the Airbus 380 airplane carries 600+ 
passengers 8,200 miles at a speed of 560 miles per hour. Times and 
equipment have changed but the flight and duty time rules have not. 
They were not designed to address our modern environment and equipment.
    The National Transportation Safety Board issued three 
recommendations to the DOT in 1989 following several accidents 
involving operator fatigue:

        1. Expedite a coordinated research program on the effects of 
        fatigue, sleepiness, sleep disorders, and circadian factors on 
        transportation system safety.

        2. Develop and disseminate educational material for 
        transportation industry personnel and management regarding 
        shift work, work and rest schedules, and proper regimes of 
        health, diet, and rest.

        3. Review and upgrade regulations governing hours of service 
        for all transportation modes to assure that they are consistent 
        and that they incorporate the results of the latest research on 
        fatigue and sleep issues.

    Since 1989, the Safety Board has issued more than 70 fatigue-
related safety recommendations which were the result of major accident 
investigations, special investigations, or safety studies that 
identified operator fatigue as a factor. This includes more than 15 
significant accident reports or studies concerning aviation operations 
conducted under Parts 91, 121 and 135 (see table).

 Listing of Selected Fatigue-related aviation investigations and studies
  conducted by the National Transportation Safety Board since May 1989
------------------------------------------------------------------------
    Location of
 accident or topic
 of the study that   Accident Date            NTSB Report Number
identified fatigue-
  related issues
------------------------------------------------------------------------
                                Aviation
------------------------------------------------------------------------
Accident
 investigation:
------------------------------------------------------------------------
Molokai, Hawaii           10/28/89                            AAR-90-05
------------------------------------------------------------------------
Brunswick, Georgia        04/05/91                            AAR-92-03
------------------------------------------------------------------------
Pine Bluff,               04/29/93                        AAR-94/01/SUM
 Arkansas
------------------------------------------------------------------------
Guantanamo Bay,           08/18/93                            AAR-94-04
 Cuba*
------------------------------------------------------------------------
Kansas City,              02/16/95                            AAR-95-06
 Missouri*
------------------------------------------------------------------------
Cheyenne, Wyoming         04/11/96                            AAR-97-02
------------------------------------------------------------------------
Everglades,               05/11/96                            AAR-97-06
 Florida
------------------------------------------------------------------------
Little Rock,              06/01/99                            AAR-99-60
 Arkansas
------------------------------------------------------------------------
Nimitz Hill, Guam         08/06/97                            AAR-00-01
------------------------------------------------------------------------
Tallahassee, FL*          07/26/02                            AAR-04-02
------------------------------------------------------------------------
San Diego, CA             10/24/04                            AAB-06-05
------------------------------------------------------------------------
Kirksville, MO            10/19/04                            AAR-06-01
------------------------------------------------------------------------
Cleveland, OH             02/18/07                            AAR-08-01
------------------------------------------------------------------------
Travers City, MI          04/12/07                            AAR-08-02
------------------------------------------------------------------------
Clarence Center,          02/12/09        Open (NTSB Preliminary ID No.
 NY (Colgan 3407)                                           DCA09MA027)
------------------------------------------------------------------------------------------------------------------------------------------------
Special Investigation:
------------------------------------------------------------------------
Commercial space          08/17/93                            SIR-93-02
 launch incident,
 Cape Canaveral,
 Florida
------------------------------------------------------------------------------------------------------------------------------------------------
Safety study:          Report Date
------------------------------------------------------------------------
Flight crew-              02/03/94                             SS-94-01
 involved
 accidents
------------------------------------------------------------------------
Commuter airline          11/30/94                             SS-94-02
 safety
------------------------------------------------------------------------
Aviation safety in        12/01/95                             SS-95-03
 Alaska
------------------------------------------------------------------------
*Air Cargo accident.

    In addition to the accident reports indicated above, the Board 
acknowledged that fatigue can result in degraded performance in flight 
crews and that disruption of the sleep/rest cycle may have played a 
role in the Air Transport International (Swanton, OH) DC-8 cargo crash 
on February 15, 1992 (AAR-92-05).
    The Board has not made distinctions between reforms needed for the 
rules applicable to passenger and all-cargo operations in its reports 
and recommendations to the FAA; rather the Board has recognized that 
the effect of fatigue is the same whether a pilot is carrying cargo or 
passengers, or operating a scheduled or non-scheduled flight. Fatigue 
is an equal opportunity killer.
    Pilot fatigue has been on the Safety Board's list of Most Wanted 
Transportation Safety Improvements since the list's inception in 1990. 
Other, more specific, recommendations have followed. The Board's 
current Most Wanted List (August 2009) specifies the following 
objective to reduce accidents and incidents caused by human fatigue in 
the aviation industry: Set working hour limits for flight crews based 
on fatigue research, circadian rhythms, and sleep and rest 
requirements.
    I believe that there is universal agreement that there is an urgent 
need for modern flight time regulations.
    This brings us to ``what should a modern flight time regulation 
prescribe?'' There are three basic principles for a new rule. One, it 
must be based on science. Two, it must apply equally to all operations: 
domestic, international and supplemental. There is no basis for any 
``carveouts'' for air cargo or charter operations. Three, it must 
include the ability for air carriers to transition to a Fatigue Risk 
Management System, or FRMS.
    First, let me address the science.
    There is a large body of sleep science available and there are 
several recent aviation fatigue studies. Over the past 60 years, 
scientific knowledge about sleep, sleep disorders, circadian 
physiology, fatigue, sleepiness/alertness, and performance decrements 
has grown significantly. Some of this scientific knowledge, gained 
through field and simulator studies, confirms that aviators experience 
performance-impairing fatigue from sleep loss resulting from current 
flight and duty practices. There are also several fatigue models 
available. These models can analyze a schedule and predict whether the 
pilot will have an adequate level of alertness to fly the schedule.
    The International Civil Aviation Organization, (``ICAO''), a United 
Nations organization, has 190 member countries including the United 
States. Its role is to establish standards for the safe operation of 
civil aircraft throughout the world. ICAO has mandated that flight 
limitation rules be based on science and they have recently implemented 
a new standard for flight time rules which states in part:

        ``For the purpose of managing fatigue, the State of the 
        Operator shall establish regulations specifying the limitations 
        applicable to the flight time, flight duty periods, duty 
        periods and rest periods for flight crew members. These 
        regulations shall be based upon scientific principles and 
        knowledge, where available, with the aim of ensuring that 
        flight crew members are performing at an adequate level of 
        alertness.''

    The United States is bound to comply with this standard. Our 
current rules are simply not based on science and therefore do not 
comply with the ICAO standard.
    Second, I will address the need to have one level of safety in 
flight time limitation regulations. Scheduled passenger, all-cargo and 
charter air carrier operations are no different when it comes to the 
actual operation of the aircraft. All three types of operations use the 
same aircraft, the same airspace, and the same airports in the same 
cities. As such, there is no rational basis for cargo or charter pilots 
to have different or more liberal fatigue rules than scheduled 
passenger operations.
    Domestic pilots who carry passengers under FAR Part 121 have a 
flight time maximum of 30 hours in 7 days, while International (Flag) 
passenger-carrying pilots are allowed up to 32 hours in the same 7 days 
under the current FAA regulations. These current ``flight time'' limits 
only account for the time pilots spend actually operating the airplane. 
The current flight time limits do not account for the time pilots spend 
in pre-flight and post-flight duties, the time spent at airports 
between flights, the time spent going through security or traveling to 
and from the airport to hotels, or the time spent in training and other 
ground-based duties. Even with the existing 30- and 32-hour weekly 
``flying time'' limits applicable to pilots carrying passengers, there 
is widespread acknowledgement of the existence of serious pilot fatigue 
problems throughout the industry and widespread acknowledgement that 
reform of the rules based on modern scientific principles is long 
overdue. On the other hand, charter and air cargo pilots flying under 
today's supplemental rules can fly 48 hours in a six-day period or 60 
percent more than domestic passenger-carrying pilots. We believe that 
these supplemental rules significantly reduce available safety margins 
and put all-cargo and charter operation crewmembers, passengers and 
persons on the ground at risk. A uniform modernization of the flight 
time/duty time rules including harmonized rules for the cargo industry 
is long overdue, and needed to enhance safety.
    Third, any new regulation dealing with pilot fatigue should provide 
a method for carriers to transition to a FRMS. This is the gold 
standard of pilot fatigue management to ensure that pilots have an 
adequate level of alertness. Ideally it would be a part of a Safety 
Management System, or SMS. However, FRMS can operate independently of a 
SMS.
    The purpose of a FRMS is to ensure that flight crew members are 
sufficiently alert so that they can operate to a satisfactory level of 
performance and safety under all circumstances.
    A FRMS supplements prescribed flight and duty-time regulations and 
competent, independent scientific research-based software scheduling 
tools by applying safety management principles and processes to 
proactively and continuously manage fatigue risks through a partnership 
approach which requires shared responsibility among management and crew 
members. FRMS can, therefore, only operate in circumstances where all 
stakeholders--particularly the pilots--support the operation of FRMS. 
Accordingly, an open reporting system and non-punitive working 
environment is a prerequisite for FRMS because honest and accurate crew 
feedback is an essential component of the program. A FRMS must specify 
the prescriptive regulatory scheme upon which it is based. In the event 
of suspension, termination or revocation of a FRMS, the carrier's 
affected operations shall revert to the baseline prescriptive 
scheme.\1\
---------------------------------------------------------------------------
    \1\ ALPA's White Paper on Fatigue Risk Management Systems (2008) 
may be found here: http://public.alpa.org/portals/alpa/pressroom/
inthecockpit/FatigueRiskMSWP_6-2008.pdf.
---------------------------------------------------------------------------
    Over the last 3 years, ALPA's Flight Time/Duty Time Committee has 
developed guidelines for a flight limitation regulation that have a 
rational, scientific foundation and also incorporate years of 
operational experience. These guidelines are harmonized with ICAO and 
the International Federation of Air Line Pilots Association and deal 
with seven major areas: duty limits, including block-hour limits, rest 
requirements, extension of duty in irregular operations, cumulative 
fatigue, augmentation rules that consider the quality of the on-board 
rest facility, reserve rest requirements and rules for implementing a 
FRMS.\2\
---------------------------------------------------------------------------
    \2\ ALPA's current guidelines for a scientifically-based flight 
limitation regulation may be found here: http://public.alpa.org/
FTDTFightingFatigue/tabid/3370/Default.aspx.
---------------------------------------------------------------------------
    These guidelines represent ALPA's views as to the minimum 
requirements a regulation must have to insure an adequate level of 
pilot alertness.
    ALPA also believes that it is important that the FAA require air 
carriers to implement a fatigue education and training program for 
flight crew members. Such a program should include, at a minimum, 
information on the detrimental effects of fatigue and strategies for 
avoiding and countering fatigue. ALPA has implemented its own fatigue 
training program and we have published and distributed to our members 
The Airline Pilots Guide to Fighting Fatigue.\3\
---------------------------------------------------------------------------
    \3\ http://public.alpa.org/portals/alpa/fatigue/MagazineInsert10-
2008_FatigueGuide.pdf.
---------------------------------------------------------------------------
    In closing, I would like to say that I am encouraged that it 
appears we will finally get new flight limitation rules. As you know, 
FAA Administrator Randy Babbitt, in June of this year chartered an 
Aviation Rulemaking Committee (``ARC'') to develop a new flight time 
rule. ALPA along with other members of the industry participated in 
this process. In addition to having an ALPA pilot, Captain Don Wykoff, 
serve as a co-Chair, we had four members and two alternates serve on 
the Committee who fly for domestic, international, cargo and regional 
airlines. The ARC presented its report in early September to 
Administrator Babbitt. Mr. Babbitt has publicly stated that he will 
publish a NPRM on Flight Time by December 31, 2009. We expect a short 
comment period and hopefully a final rule by mid-2010.
    We badly need a new flight and duty-time regulation. While we have 
been told it will be done in mid-2010, we have seen too many times in 
the past that the FAA has not delivered on its promises with regard to 
pilot fatigue regulations. We respectfully solicit Congress' active 
support in ensuring that this new regulation becomes a reality.

    Senator Dorgan. Captain Prater, thank you very much. We 
appreciate your being here.
    Mr. William R. Voss is the President and CEO of The Flight 
Safety Foundation in Alexandria, Virginia.
    Mr. Voss, welcome.

       STATEMENT OF WILLIAM R. VOSS, PRESIDENT AND CEO, 
                    FLIGHT SAFETY FOUNDATION

    Mr. Voss. Thank you. Chairman Dorgan, Ranking Member 
DeMint, and distinguished members of the Subcommittee, thank 
you for giving us an opportunity to testify.
    Fatigue in aviation has been in the headlines lately, but 
it has been scientifically researched for decades, as you've 
noted. In 1979, NASA first studied fatigue and decisionmaking 
in simulators. Decades of research have followed by 
institutions around the world. It has taken a long time and a 
lot of data for the industry to reach consensus on this issue, 
but the tragedy of the Colgan Air crash has pushed us along 
toward a conclusion.
    Regardless of how we got here, the Foundation supports the 
FAA's current effort to develop rules that reflect a scientific 
understanding of fatigue.
    In writing these rules, the FAA is faced with a daunting 
task. Human fatigue is too complex to deal with just the 
classic approach of regulations and compliance. Ideally, we'd 
implement a comprehensive fatigue risk management system across 
the whole industry, but it's unrealistic to think that every 
operator could adopt such an approach. So, the FAA will have to 
write traditional, prescriptive rules, while also allowing 
large operators to take a more comprehensive fatigue risk 
management approach.
    As a minimum, these prescriptive provisions should address 
the relationships between assigned duty and time of day, the 
cumulative effects of consecutive duty periods, and the effect 
of multiple short-haul flights. These provisions will not be 
perfect, but they will--and they will be a compromise; but, for 
smaller operators, they'll be practical. And they will 
significantly improve the level of safety.
    Now, for those operators who are able, they should be 
encouraged to go beyond the basic rules and adopt the fatigue 
risk management system, or FRMS. FRMS addresses fatigue 
systematically. It increases the responsibility of the operator 
and its employees to jointly manage the risk.
    Broadly speaking, FRMS offers three layers of protection 
that include prevention, which is the proactive strategic risk 
reduction, such as scheduling correctly based on science; 
mitigation at the operational level, to make sure you execute 
the plan you've put in place and you have a realistic execution 
of that plan; and intervention, for when something goes wrong, 
you still need to have the ability to intervene and reduce the 
risk of a flight. No matter what you do, there will be times 
things don't go right.
    That brings me to the subject of one of the more 
controversial interventions, and that's the controlled cockpit 
rest or napping. No matter what rules are written, there will 
always be times when pilots become fatigued. When that happens, 
many countries have determined that safety is best served by 
allowing and regulating rest in the cockpit. Regulations ensure 
this is done safely, they specify what happens during the crew 
rest, who's responsible for various actions, and a post-rest 
briefing.
    Of course, controlled rest cannot be used to replace 
responsible planning and scheduling. Every flight must begin 
with a well-rested crew. But, when things go wrong, controlled 
rest is an important tool to keep things safe.
    There are some other fatigue issues that deserve 
consideration. Even though much research has been done, there 
are still some gaps. More research is still needed in the area 
of high-frequency/high-cycle operations. We understand the 
Regional Airline Association is willing to conduct studies in 
this area. The Foundation strongly supports those efforts and 
calls on the FAA to consider these findings in the proposed 
rules.
    We focus so much on the flight crew that we often overlook 
fatigue in the rest of the industry. Last year, the Foundation 
published a long article about the danger of fatigue among 
aviation maintenance workers. This has also been examined by 
ICAO, which has cited several accidents in which fatigue among 
maintenance workers has been a contributing factor. The 
Foundation strongly urges the FAA to consider maintenance 
personnel in future rules.
    Finally, a concerted effort should be made by the FAA, 
industry, and labor to educate the aviation safety workforce on 
matters associated with fatigue risk. Countless operators are 
in the process of developing fatigue training materials for 
their workforce. If we pooled these efforts, we could do much 
more, and do it quickly. Just as regulators, labor, and 
industry came together 20 years ago to deal with the problem of 
controlled flight into terrain, we can come together again to 
deal with this threat. The Flight Safety Foundation is working 
with the Regional Airline Association and others to make this 
happen.
    In summary, I'm gratified by the cooperation we're seeing 
around this issue, and I'm optimistic that the FAA proposed 
rules will be scientifically-based and will include all the 
latest research and experience.
    Thank you very much for the opportunity to testify.
    [The prepared statement of Mr. Voss follows:]

       Prepared Statement of William R. Voss, President and CEO, 
                        Flight Safety Foundation
    Chairman Rockefeller, Ranking Member Hutchison, and distinguished 
members of the Committee: My name is William Voss and I am the 
President and Chief Executive Officer of Flight Safety Foundation.
    Flight Safety Foundation is an independent, nonprofit, 
international organization engaged in research, auditing, education, 
advocacy, and publishing. Its mission is to pursue the continuous 
improvement of global aviation safety and the prevention of accidents. 
We have members all around the world representing every facet of the 
aviation industry. On behalf of the Foundation, I appreciate your 
providing me this opportunity to testify about the important issue of 
fatigue, our views of the Federal Aviation Administration's (FAA) 
potential recommendations, and other recommendations from the 
Foundation.
    The tragedy of the Colgan Air crash in Buffalo on Feb. 12, 2009, 
like so many other accidents, need not have happened. While we cannot 
bring back the victims of the Colgan Air crash, we can honor their 
lives by using the knowledge we gained during this investigation to 
revamp how we deal with fatigue management. We are pleased to see the 
FAA and industry--with management working well with labor--addressing 
this issue as a high priority, and pledging to apply the science we 
know to bring about very soon practical and needed reforms.
    My background in aviation is diverse. I've been a pilot, an air 
traffic controller, a certified aviation mechanic, and a regulator and 
standard-setter, both at the FAA and the International Civil Aviation 
Organization (ICAO). I know firsthand how the issue of fatigue can 
affect every aspect of this industry. We all know that fatigue affects 
our performance, but normally our own drowsiness or lack of sleep does 
not have catastrophic consequences.
Fatigue Risk Management Systems--The Preferred Approach
    To cut to the chase, we recommend that civil aviation authorities 
immediately adopt effective fatigue risk management systems (FRMS). 
FRMS is a proactive approach to addressing fatigue in a systematic, 
comprehensive manner that does not rely solely on adherence to a set of 
prescribed hourly limits of duty and required time off. Instead, it 
decreases the role of the regulator and increases the responsibility of 
the operator and its employees to jointly manage the risk. In its 
broadest interpretation, FRMS takes a systematic, three-pronged, 
incremental approach to managing fatigue risk:

  <bullet> Prevention--This fundamental first step can be characterized 
        as proactive strategic risk prevention. It includes such 
        measures as scientifically defensible scheduling, suitable 
        hotels for sleep, crew augmentation, and education and training 
        about sleep hygiene and fatigue. We believe that this step 
        should also include medical identification and treatment of 
        sleep disorders, such as sleep apnea, which are known to 
        increase with aging; however, the FAA's annual medical 
        examination for air transport pilots (FAA Form 8500-8; 
        Application Process and Examination Techniques) has no 
        requirement to identify possible sleep disorders.

  <bullet> Mitigation--This second step encompasses risk mitigation at 
        the operational level. It includes such measures as responsible 
        trip planning, including pre-trip rest and commuting if 
        necessary, crew rest facilities (both at the airport and in 
        flight for augmented crews), meal planning, anticipation of 
        irregular operational events, and crew resource management 
        (CRM) training that addresses fatigue effects on crew 
        performance.

  <bullet> Intervention--This final step recognizes the inevitable fact 
        that crews sometimes experience significant fatigue despite 
        their and the operator's best efforts to prevent it. It 
        includes those actions that can be invoked to manage the risk 
        until the flight is safely concluded. This intervention can 
        include tailored procedural guidelines, enhanced CRM, timely 
        intake of caffeine, and controlled rest on the flight deck.

    An FRMS's comprehensive range of safeguards is designed to control 
the risk associated with both transient and cumulative fatigue. FRMS is 
data-driven, monitoring situations in which fatigue risk occurs and in 
which safety may be jeopardized. It then allows for generating new 
scheduling solutions or other strategies to mitigate measured fatigue 
risk. At the same time, FRMS provides operators with flexibility to 
seek the most efficient safe crewing solutions to meet operational 
needs.
    An FRMS enhances the capability of prescriptive flight-time 
limitation concepts to provide an equivalent or enhanced level of 
safety based on the identification and management of fatigue risk 
relevant to the specific circumstances. Use of an FRMS can allow 
greater operational flexibility and efficiency while maintaining safety 
by relying on in-flight measurements of sleep and alertness, including 
subjective reports by crewmembers, to monitor how scheduling affects 
flight crew and cabin crew alertness during flight duty.
Fatigue Management--Abundant Study, Not Enough Action
    Flight Safety Foundation has worked on this issue for many years, 
including creating the Ultra-Long Range (ULR) Crew Alertness Steering 
Committee, which in 2005 published guidance for conducting flights that 
last 16 hours or more, and the Fatigue Countermeasures Task Force, 
which created the Principles and Guidelines for Duty and Rest 
Scheduling in Corporate and Business Aviation in 1997. In addition to 
these task forces, Flight Safety Foundation has written about the issue 
of fatigue extensively in our publication, AeroSafety World, as well as 
in older Foundation publications.
    The problem of fatigue in aviation has been highlighted in the 
headlines over the past year, but it is an issue that has been the 
target of decades of scientific research. In 1979, the National 
Aeronautics and Space Administration (NASA) undertook the first study 
to examine the effects of fatigue on decisionmaking in an aircraft 
simulator. Shortly after that, Congress directed NASA to undertake a 
multi-year study to understand the impact of crew fatigue and jet lag. 
This led to a collaborative study with laboratories in the United 
Kingdom, the Federal Republic of Germany, and Japan and produced some 
outstanding results.
Federal Aviation Administration Actions
    We are supportive of FAA efforts to establish new rules that 
reflect a much better scientific understanding of fatigue. With the 
announcement on November 24, 2009 of the withdrawal of the Notice of 
Proposed Rulemaking from 1995, we anticipate that new rules will be 
proposed soon. The industry and regulators have been studying fatigue 
for many years, and there has been gradual progress in finding a 
consensus.
    In writing this new rule, the FAA is faced with a daunting task. 
Quite simply, human fatigue is too complex a subject to be dealt with 
using the classic approach of regulations and compliance. To deal with 
the problem of fatigue risk effectively, it is necessary to implement a 
comprehensive fatigue risk management system. Many major operators will 
do this, but it is unrealistic to think that every operator is going to 
take such a sophisticated approach. For that reason, the FAA will have 
to write a rule that has imperfect, but improved, prescriptive 
provisions, but also encourages the use of fatigue risk management 
systems where appropriate.
    At a minimum, these prescriptive provisions within the new 
regulation should address the relationship between assigned duty and 
the time of day, the cumulative fatigue effects of consecutive duty 
periods, and the effect of multiple short flights during the duty day. 
These provisions will not be perfect, but for smaller operators, 
simplicity is more important than perfection.
    Another challenge the FAA will face is the fact that the fatigue 
research, while extensive, is somewhat uneven. A great deal of research 
has been done on the effects of ultra-long range flights, but 
relatively little research has been done into the fatiguing effect of 
frequent short flights. The FAA will have to find a way to put a 
regulation in place quickly, while allowing for adjustments as new 
information becomes available.
Global Examples--Useful Examples
    Several airlines and civil aviation authorities have adopted FRMS. 
One of the first airlines was easyJet, which began the system as a 
research program to gather data on pilots' sleep and fatigue-related 
performance. The research effort yielded revised work schedules, 
continuing data collection and more information on fatigue risks, a 
procedure for crewmembers to report fatigue within a just culture, and 
a process for investigating the role of fatigue in all incidents. This 
is a process that could be easily replicated and should be a part of 
any FAA proposed rulemaking.
    An FRMS is easily integrated into any safety management system 
(SMS). This is the approach taken by Transport Canada. An FRMS is one 
element of an SMS, while the just culture and non-punitive safety 
reporting that are called for in FRMS are integral parts of SMS. Flight 
Safety Foundation has publicly stated its support for Transport 
Canada's embrace of safety management systems.
    Canada is one of many countries that have determined that safety is 
best served by allowing--and regulating--controlled napping in the 
cockpit. This is a position that Flight Safety Foundation heartily 
endorses and calls on the FAA to do the same. Of course, controlled 
napping must never take the place of a good night's sleep and sensible, 
scientifically defensible scheduling. But on occasion, a pilot may 
unexpectedly feel extra-fatigued due to conditions out of his or her 
control. In that case, it is far safer to have a procedure in place to 
allow the fatigued pilot to sleep for a prescribed amount of time with 
the full knowledge of the co-pilot and the rest of the flight crew. The 
regulations developed by Canada outline a procedure that takes into 
account all possible variables and leads to safer operations. It 
includes requirements covering how napping shall be undertaken, what 
happens during crew rest, and who is responsible for various actions as 
well as a post-rest briefing.
    The idea of controlled rest in the United States is, unfortunately, 
colored by well-publicized episodes of uncontrolled rest. We hope that 
the FAA will consider the science and the successful experiences in 
many other countries to guide them on this aspect of FRMS, rather than 
alarmist concerns from individuals who have not studied this issue. 
Many countries and airlines allow for controlled napping, including 
France, Australia, Singapore and Canada. The aviation safety records of 
those countries speak for themselves.
    The Foundation also urges the FAA to capitalize on its June 2008 
fatigue management symposium and its ULR experience to further develop 
and implement FRMS on a trial basis within the context of current 
prescriptive flight-time limitations. As in other countries, close 
cooperation and support among airline management, pilot organizations 
and regulators will be critical to achieving success. In addition, 
since ICAO is the appropriate body to establish mutually acceptable 
worldwide standards and recommended practices for FRMS, the Foundation 
strongly encourages the FAA's continued participation in and support of 
ICAO's efforts to use FRMS as an alternative to flight- and duty-time 
limits.
Other Fatigue Issues
    We focus so much on the performance of pilots and possibly the rest 
of the flight crew, we often overlook the rest of the industry when we 
think about fatigue. Last year, AeroSafety World published a long 
article about the dangers of fatigue in aviation maintenance workers 
(April 2008). This has also been an issue examined by the ICAO, which 
cited several accidents in which fatigue on the part of maintenance 
workers was a contributing factor.
    North of our border, the Canadians are working on initiatives to 
incorporate FRMS for both flight crews and maintenance personnel as a 
mandatory portion of an operator's SMS. Australia is also moving toward 
implementation of FRMS in aviation maintenance.
    Flight Safety Foundation strongly urges the FAA to include 
maintenance personnel in its proposed rules addressing fatigue.
    Another area that calls for more research is that of high-
frequency/high-cycle operations. An eight-hour work day means two 
different things for the ultra-long range operator and the regional 
operator. Multiple take offs and landings over that time period can 
lead to a higher level of fatigue due to the higher work load 
activities. We understand the Regional Airline Association has 
committed to lead new studies to examine the relationship between these 
types of operations and fatigue. Flight Safety Foundation strongly 
supports those efforts and calls on the FAA to include these research 
findings in the proposed rules. Broadening the research into the short-
haul flights is also a recommendation of the National Transportation 
Safety Board (NTSB).
    In addition to the recommendation on increased research on short-
haul flights, the NTSB has issued recommendations that address the 
issue of undiagnosed sleep apnea and other sleep disorders. The FAA's 
current guidance to aviation medical examiners does not include a 
discussion of risk factors for sleep apnea, nor does the application 
for an airman's medical certificate ask if there is a history. 
According to the NTSB, other Federal agencies overseeing other forms of 
passenger transportation already gather this sort of information or are 
in the process of revising forms and guidance in order to do so.
    Finally, a concerted effort should be made by the FAA, industry and 
labor to educate the aviation safety workforce on matters associated 
with fatigue risk. This doesn't require regulatory action, and would 
have a significant positive effect in the near term. We can start 
putting tools into the hands of those people who could make a 
difference, including managers, schedulers, pilots, flight attendants, 
maintenance technicians, and others. Countless operators are in the 
process of developing fatigue training materials for their work force. 
If we pooled these efforts, we could do much more, and do it quickly. 
Just as regulators, labor and industry came together 20 years ago to 
deal with the problem of controlled flight into terrain, we can come 
together again to deal with this threat. The Flight Safety Foundation 
is working with the Regional Airline Association and others to try to 
make that happen.
    The United States should be leading the world on fatigue management 
as it has led the world on so many advances in aviation safety. Civil 
aviation authorities all around the world are using the research 
undertaken by NASA and ICAO to mitigate the risk that comes from a 
fatigued aviation work force. The time is now for the FAA, the 
operators, management, and labor to come together and develop a 
consensus on this vital issue. I'm personally gratified by the level of 
cooperation we are seeing and I'm hopeful that the FAA's proposed rules 
will meet the challenges of being scientifically based and inclusive of 
all the latest research and experiences.
    Thank you very much for the opportunity to testify today. I would 
be pleased to answer any questions.

    Senator Dorgan. Mr. Voss, thank you very much.
    Let me begin with you. I think, what I heard you say was 
that there should be two different standards of regulations or 
processes dealing with fatigue, one for the larger carriers, 
which can do it more comprehensively, and then a separate 
approach for the smaller carriers. That would not be very 
comforting to a passenger that gets on an airplane that is not 
one of the larger carrier planes, because--seems to me fatigue 
is fatigue, no matter the size of the plane that--and that 
people in the cockpit that are flying it. If they're fatigued, 
there are risks. So, expand on that. You're telling us you 
think there ought to be two standards?
    Mr. Voss. Thank you, Mr. Chairman.
    Actually, to be very clear, what I'm trying to say is, is 
that regulations have to be written in a way that can be 
complied with. And sometimes you need straightforward rules, as 
I believe we will be able to put together through this 
regulatory process, to serve as the limit, as the safety net. 
However, there is still an opportunity, here, to go beyond the 
basics. We can ensure a strong level of safety, make a big 
improvement in the industry, but we need to pay attention to 
the fact that there are new processes out there, called fatigue 
risk management, which allow us to take the data we get from 
everyday operations and see where problems are developing and 
implement things that even go beyond the rules.
    And so, I'm saying that we need to put good rules in place. 
We need to also make provisions for us to grow beyond the rules 
that exist.
    Senator Dorgan. But, again--maybe, Captain Prater, you can 
respond to this--we have developed, in recent years, this 
system of the large trunk carriers and then the regional 
carriers. The regional carriers are a very important part of 
our system. They have one-half of the flights and carry one-
fourth of the passengers every year. Let me say that again, 
one-half of the flights and one-fourth of the passengers are on 
regional carriers. They get on an airplane that has the 
markings, in many cases, of the large carriers, but it's not 
the large carrier, it's a regional carrier. And it seems to me 
that the question of fatigue is a question that is not separate 
by the size of the cockpit or the size of the airplane.
    Captain Prater, you described fatigue--you used the term, 
``dire''. What's your sense of whether there should be one 
standard or two or--as Mr. Voss suggests. And I understand why 
he suggests it. I have difficulty agreeing that we should move 
in that direction. He says it would be more difficult for the 
smaller regional carriers to comply to more comprehensive 
rules.
    Mr. Prater. Well, let me begin with--I'll restate. We 
believe that there should be one set of strong underlying 
regulation that creates the foundation, regardless of the size 
of airplane or the cargo behind the cockpit door. That would be 
the first. The second level, then, would say, How do we enforce 
that? And how--and I think maybe Bill was alluding to--how can 
we improve upon that level of foundation? But, the first 
foundation, the regulation should apply to all equally. It 
doesn't matter whether you've got one passenger or 500 in the 
back of your airplane.
    The FRMS would allow us to look at specific situations. 
Just take one case, the ultra-long range. If I get into a 777 
and go from Newark to Hong Kong, it's going to be about 16-and-
a-half hours. That exceeds the current regulation. But, with a 
FRMS, we could come up with the rules on how to conduct a 
specific flight like that. I think that's where Bill's trying 
to go.
    Senator Dorgan. Captain Prater, you said that the fatigue 
rules in the U.S. do not comply with the ICAO standards. What 
do you mean by that?
    Mr. Prater. ICAO has called for the flight-time/duty-time 
rules to be science-based. Ours currently are not science-
based. The future ones, when we get them done, as long as 
someone doesn't try to delay this like they have the last 
several attempts, will be science-based, which would bring us 
into compliance with the ICAO provisions.
    The last thing I would say on the first subject, sir, was 
the controlled napping. Again, napping should not be seen or 
viewed as somehow keeping pilots on duty even longer. In other 
words, I can hear the scheduler now, ``Well, I'm pretty tired, 
I shouldn't start this flight.'' ``Aw, don't worry, you can 
catch a nap en route.'' No, that's not a sound strategy for 
being alert on the other end. You are, once in a while, going 
to be caught in a position where you need a nap, and you'll 
coordinate it with your--with the other pilot. But, remember, 
at that point, there's one pilot in the cockpit. Our system of 
safety is based upon redundancy after redundancy. And now you 
want to say, ``Well, only one pilot has to be awake.'' Well, I 
can tell you right away, trying to come up out of a nap to make 
a snap decision, or to make even a long-range decision, is 
difficult. It has to be well planned.
    Thank you, sir.
    Senator Dorgan. Ms. Gilligan----
    Ms. Gilligan. Yes, sir.
    Senator Dorgan.--can you respond? What is the agency's 
response to the difference between Mr. Barimo and Captain 
Prater on the one-size-fits-all approach with respect to 
fatigue? I think that the ATA argues that you don't want one-
size-fits-all. Captain Prater said, I think, that one-size-
fits-all is--ought to be the minimum standard. What does the 
FAA say to that?
    Ms. Gilligan. Well, sir, the ARC actually presented us a 
framework recommendation that has one approach. And I think 
what the science does indicate is that things that contribute 
to fatigue are common across individuals, across humans, and it 
has less to do, perhaps, with the environment.
    There are some environmental issues that need to be 
considered. You, yourself, mentioned multiple take-offs and 
landings is a little bit different environment than long--than 
the ultra-long-range flight, for example, that Captain Prater 
referred to. And the rules need to acknowledge that.
    So, the framework will be a common framework. But, I think 
what you'll see in the proposal that the ARC put forward is a 
bit of a sliding scale that allows us to take into account the 
time of day that the schedule may encompass and the number of 
take-offs and landings it may encompass, so that we can 
properly balance the contributing factors to fatigue.
    Senator Dorgan. I'm going to call on Senator Lautenberg in 
a moment, but one final point. We will have Administrator 
Babbitt in front of us--I think it's next week----
    Ms. Gilligan. Yes, sir.
    Senator Dorgan.--or the week after. Can you give us--give 
us the timeline on fatigue. You're talking about the ARC and so 
on, but, as I said when I started, this goes back 40 or 50 
years, and then two aborted attempts in the----
    Ms. Gilligan. Yes.
    Senator Dorgan.--1990s to deal with this issue. What's the 
timeline here?
    Ms. Gilligan. Well, the Administrator had announced that we 
would have a final--a proposal out by the first of next year. 
Unfortunately, we have run into some additional analysis. What 
the ARC provided was, as I said previously, a very good 
framework. But, they did not provide specific recommendations 
on particular elements of the rule. And we are now having to 
fill in the blanks and analyze the effect, based on 
recommendations that the ARC made, but, again, without their 
specific agreement on what particular hours ought to be 
included.
    Senator Dorgan. Are you saying the first of the year is a 
time deadline that has been sliding?
    Ms. Gilligan. We will, unfortunately, miss the first of 
next year. We have agreed with the Administrator that we will 
complete all of our analysis by the end of January. And then 
the rule will need to go through administration review.
    Senator Dorgan. All right. I'm going to ask a series of 
additional questions of you and others about this and--but I 
want to have my colleagues have the opportunity.
    Senator Lautenberg.
    Senator Lautenberg. Thanks, Mr. Chairman.
    And I must say that what we've heard from our panel here 
today confirms the view, unanimously, that what it is now is 
not adequate, and that we have to make changes. And it's--the 
rules are antiquated, based on where the system is today, the 
number of passengers that come, the different types of 
aircraft.
    And I would ask you this. Might we be looking at something 
more than just the fatigue factor? There's a stress factor 
that, even if there's adequate sleep, there are other things 
that are--that can interfere with clear thinking, not the least 
of which is income. Now--and I don't know how we get this 
across, but there ought to be some standard.
    What are the requirements now for a commercial pilot's 
license, Captain?
    Mr. Prater. About 250 hours of flight time, instruction 
time in a single-engine airplane.
    Senator Lautenberg. And how about--are there any other 
educational requirements?
    Mr. Prater. There are no other educational requirements for 
even up to an airline transport pilot rating.
    Senator Lautenberg. Are there any physical--what are the 
physical requirements that must accompany the application for a 
license?
    Mr. Prater. There are solid physical requirements--
basically, good health, correctable vision to 20/20. And most 
pilots, twice a year, have to meet those physical standards; 
once a year, if--I believe, if you're under 35.
    Ms. Gilligan. Forty.
    Mr. Prater. Forty.
    Senator Lautenberg. Are there any prohibitions about 
alcohol use in advance of taking command or getting into the 
pilot seat?
    Mr. Prater. Yes, sir, very strict rules, both time-wise as 
well as blood alcohol content. Those--that's not----
    Senator Lautenberg. But, they're not--the pilot isn't--they 
don't give a blood sample every time they go to----
    Mr. Prater. No, but we are subject to random events. And I 
will tell you that the--it's a rule that pilots take very 
seriously, obviously. And some companies are--even have time 
limits that exceed the safety limits that the FAA has 
established.
    Senator Lautenberg. Yes, because, with all of these things 
that do exist--and you get back to the starting pay for a pilot 
or copilot, second to you--when someone is in that seat, are 
they fully prepared, in your view, to take over command, if 
necessary?
    Mr. Prater. That is one of the responsibilities of command, 
in fact, is to assess your fellow crew member. And whether or 
not it was as a--cite--you cite the concern of alcohol--most of 
us watch that very, very closely in each other. And I'm proud 
to say that we have very, very good success in recognizing 
those individuals that have a problem. And we have very good 
success----
    Senator Lautenberg. Well, the problem is--that doesn't 
suggest that that's a long-time thing. It can be a single 
episode----
    Mr. Prater. Right.
    Senator Lautenberg.--but the point I get to here is that 
the requirements, if met even to the current standard, are 
pretty heavy-duty things. But, still in all, we have these 
outrageous examples of pilots not responding to a radio 
inquiry. Should there be a list of infractions kept that says, 
if a pilot doesn't answer a radio call in 5 minutes or 3 
minutes or something like that, that that ought to be listed as 
an infraction and a record kept on that?
    Mr. Prater. Sir, I think we would quickly determine that 
the airspace and flying an airplane is very complicated. And 
the fact is, there can be either missed radio calls or 
miscommunications, but we are very successful in trapping those 
errors, either using other airplanes, whether it's monitoring 
the emergency frequency of 1215, we do catch those errors. And, 
in fact, we take it to the next level. When a professional 
makes an error, under the ASAP systems, you turn yourself in. 
You report yourself. To me, that's the height of 
professionalism, because you want somebody else to not make 
that same error. And those are the systems that we are trying 
to protect, and they are working very well.
    Senator Lautenberg. Well, when you hear a pilot say that, 
``We were distracted,'' that's not sufficient reason to fly for 
lots and lots of minutes, more than an hour--not quite--without 
responding to the--to a tower or a station along the way. It's 
shocking. And there should be a rule that's consistent with 
rapid response on radio calls. It is crowded up there, and 
equipment is moving more rapidly than it used to, so I think 
there are rules that have to be established that demand of the 
pilot certain behavioral things, so that the tower knows what's 
going on and can respond.
    Thank you, Mr. Chairman.
    Senator Dorgan. Senator Lemieux.

             STATEMENT OF HON. GEORGE S. LeMIEUX, 
                   U.S. SENATOR FROM FLORIDA

    Senator LeMieux. Thank you, Mr. Chairman.
    What we've heard today is pretty distressing about the lack 
of sleep by some of these folks who are flying our planes. I 
mean when someone walks onto a plane, onto an aircraft, you 
know that they are entrusting their life to you. And I think 
there's a larger issue here about fatigue that goes beyond 
pilots. There is fatigue in society. And you only have to go to 
the back of the plane to see--once the plane takes off, nearly 
everybody on a plane, these days, is asleep. I think because 
we're all under increasing demands where--you know, we're on 
our BlackBerries all the time, we're staying up late with kids, 
we're doing all the things that we have to do in life, and 
everybody's tired. So, not only may you have DC-3 rules, you 
also live in a world where people are a lot more tired. I mean, 
I think the sleep studies show that America is one of the worst 
nations in the world for how much sleep the average American 
gets every night.
    So, I'm encouraged that you're going to get these rules 
done, and hope that you will get them done, and get them done 
as soon as you possibly can, so that we have something that's 
scientifically-based.
    I want to bring up three things that occurred to me as 
someone who's just a frequent traveler on airplanes and, in 
Florida, have done a lot of these short-leg trips. On the 
Continental planes, which were very similar to that crash that 
occurred in Buffalo, there are a couple of things. One is, I 
see that folks who are on airline crews oftentimes now commute 
to their work--and I think this happened in Buffalo, where you 
had a Tampa-based pilot. We're talking about being well-rested 
for the start of the flight, not just being able to say, ``OK, 
I can take a nap when I'm on the plane,'' if that's the way the 
rule changes, but to be well-rested when the flight begins. How 
important is it that the crew member spend the night before 
they start on their leg, in their home, in their home bed? I 
mean it worries me that we are flying people from Tampa to 
Buffalo to go to work, and that that's the first part of their 
segment, and then they're going to actually start flying when 
they get to Buffalo or get to Atlanta.
    I experience this all the time, in talking to crewmembers, 
how many people don't live in Atlanta, for example. You know, 
Delta has its base there. There are a lot of crewmembers who 
fly to Atlanta to go to work. You know, is this something 
that's going to be addressed--the initial getting-to-work, 
commuting to your job, as a crewmember, which has to also 
increase the wear and tear on the crew member? So, I'd like to 
discuss that.
    The second thing I'd like to hear some comment on is, what 
availability for sleep rooms are there for pilots? How good are 
those sleep rooms? Is this something that's being discussed as 
providing places where pilots can sleep in between flights? 
Something that's not going to be a place where they're sitting 
in a lounge where they are not going to really get good rest, 
but where they'd actually have an opportunity to get in a cot 
or a bed and get some real sleep between flights.
    And the third thing is, who's in charge? My sense, and 
maybe it's wrong, is that the pilot is in charge. Are there 
supervisors, that are at the airports, who are looking over 
these pilots before they get on the plane? Maybe other senior 
pilots--I don't know how it works--who would say, you know, 
``Captain Prater's too tired, he just came in from Hong Kong. 
He thinks he can go on this flight. I don't think he can go on 
this flight. I'm going to tell Captain Prater has got to take 
some time off, because he's not ready to make this flight.'' Is 
there a chain-of-command that puts somebody in charge at the 
airports to make these decisions?
    So, traveling to destinations, sleep rooms, and 
supervision. And I'll ask Ms. Gilligan if she would like to 
start on that.
    Ms. Gilligan. Sure. Thank you, sir. On the issue of 
commuting, the Aviation Rulemaking Committee recommended that 
the pilot be required to report to work fit for duty. That is 
consistent with our regulations at this point. They did not 
make a recommendation to change the regulation. However, 
commuting is one of the areas that we are looking at as we 
prepare our proposal, to see if there are additional 
requirements that we want to include in that particular area. 
So, that is something that will be addressed, and we will 
certainly ask for comment on, in the proposal.
    On the issue of sleep rooms, there are two things. First, 
there are--especially for the cargo carriers, there are a 
number of major cargo carriers who actually provide rooms--
temperature-controlled, quiet rooms for pilots to sleep. And 
one of the recommendations from the ARC was to give 
consideration to that kind of rest, and to perhaps add 
additional time to the duty day. We will look at proposals in 
that area and ask for comment on that, as well.
    For the ultra-long flights, or the flights where we have 
what we call ``augmented crew,'' there are sleeping facilities 
on board the aircraft. The ARC recommended that the higher-end 
facilities be given more credit than where an operator might 
expect a pilot to sleep in a first-class seat, for example. The 
proposal will look at those differences and ask for comment on 
whether credit ought to be given in those areas, as well.
    We are trying to address all of these various issues that, 
while not the main issue of fatigue, certainly contribute to 
helping the pilots better manage fatigue.
    Senator LeMieux. What about supervision?
    Ms. Gilligan. Ah, I'm sorry. In the last issue, the 
regulations will likely propose that both the operator and the 
pilot will have responsibility. The rule would say the 
``operator may not allow'' and the ``pilot may not accept.'' 
Many of our rules are written in that way to have that shared 
responsibility so that, as Captain Prater pointed out, we can 
be sure that we have the checks and balances that we need 
within the system.
    Senator LeMieux. Captain Prater, can you talk to those 
three points?
    Mr. Prater. I'd be glad to, Senator.
    First of all, I think we need to understand that commuting 
is a fact of life. Whether I'm driving from Richmond to D.C., 
that might take me 3 hours, or whether I'm flying from St. 
Louis to D.C., which would take me an hour and 45 minutes, I am 
commuting to work. I'm starting my day ahead. It comes down to 
the professional responsibility of, ``What do I have ahead of 
me that day?'' If I'm just flying an easy trip, I'm flying one 
leg to Florida, yes, I'll come up that morning. I'll be there 
for several hours, and then I'll go to work and I'll feel fine. 
If I'm flying an all-nighter, to Sao Paulo, I'll come up the 
night before and get some rest during the day. Those are just 
facts of--as you say, of the life we live in.
    Now, you have to know your schedule. It's more difficult 
for reserve pilots. Most reserve pilots are within 2 to 3 hours 
of their duty station. But, even there, if you live in--on Long 
Island and you're trying to get to Newark, it can easily take 3 
hours. So, you do have to plan far ahead.
    I do not see it as the problem. One of them that has been 
cited so many times is that the first officer commuted from 
Seattle to Newark to fly her trip. What should be said is--or 
should be pointed out is, she could have flown that trip as a 
pilot the night before and been legal to fly the trip to 
Buffalo. So, it's not just commuting, it's the overall issue of 
how our flight-time/duty-time rules work.
    Who's in charge? Well, I think it starts and ends with the 
captain, but the carrier does have responsibility. The 
carrier's got a responsibility to accept my word, and they're 
not going to fire me or discipline me if I say, ``I'm too tired 
to go on.'' We still fight that problem. We call it ``pilot 
pushing.'' Because if the airplane doesn't go, the revenue sits 
on the tarmac. If they don't have enough pilots because they've 
cut back so much, that trip is canceled. Those economic 
pressures live every day. We have to fight them.
    The last one is the sleep rooms--totally, wholly inadequate 
at most airlines.
    Senator LeMieux. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Dorgan. Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman. Thank 
you.
    I also wanted to acknowledge--I know that some of the 
Colgan families are out there, from the crash. Thank you again 
for being here and being a--just a moral compass for us as we 
work on this important topic and try to get these rules down.
    And I appreciate, Ms. Gilligan, your saying that these will 
get done. I was just shocked to learn, at a hearing a few weeks 
ago, that the deicing rules are 12 years old, that they haven't 
even gone in the recommendations, and that, finally, actually, 
I talked to Cass Sunstein, the Director of OIRA, and Secretary 
LaHood, and they're finally out for public comment after 
sitting there in some bureaucratic morass for 12 years. So, I 
want to thank you for pushing on these, and encourage you to do 
this as quickly as possible.
    I think one of the things, to follow up with what Senator 
LeMieux was talking about, was just this changing culture. And 
I think that these rules that we have, the FAA's policies on 
pilot fatigue, are something like a half-century old, and it 
doesn't reflect new technologies, new ways of living, or new 
information that we have about fatigue. And one of the things 
that I've been very focused on is looking at fatigue, is what 
Senator Dorgan was saying, what, half the flights are regional 
and a--half the flights are national, and a quarter of the 
passengers are regional, yet the rules seem to be different 
with the regional and the national flights.
    And, I guess, my first question was--I know that some of 
the large carriers reimburse pilots for hotel costs so that 
they can get some sleep between shifts. Do regional carriers do 
the same thing? And would this be a solution to some of the 
problems?
    Captain Prater, do you want to start with that?
    Mr. Prater. I would say most carriers do not provide for 
the reimbursement of the expenses for coming to work, to be 
well rested. So, they don't pay for hotel rooms where you start 
and end your trip.
    Part of the problem, Senator, is that the system doesn't 
provide for a mechanism to provide the pilots with a decent 
salary, because we have a marketplace system that we've had 
over 160 failures of airlines. We keep seeing, in calling these 
airlines something other than what they are--``regional 
carrier,'' what does that mean? They fly from Canada to Mexico. 
These are ``airliners.'' We need to get away from trying to 
pigeonhole them because they're flying ``just'' 50 passengers.
    Senator Klobuchar. Right. In fact, I know one of the things 
we discussed--and maybe you want to comment on this, Mr. Voss--
is, arguably, the regional pilots, some of them are flying 
shorter flights. Their flying time is more stressful because it 
involves more take-offs and landings, and they're actually 
doing more during that time. And I wondered, Mr. Voss, if--
should we take that into account, as opposed to just simply 
looking at time in the air?
    Mr. Voss. Yes, thank you, Senator. Certainly should take 
that issue in account of the frequency of the legs and the 
workload, and so on, that that involves. And it is interesting 
that that area is--had probably the least amount of research 
done to it. A lot of work has been done on ultra-long-haul and 
time-zone shifts. More work is being done in that area, and I 
think that's a critical area we need to take into account. And, 
as I understand the rules that were described by the ARC, we'll 
take this up-and-down factor into account.
    Senator Klobuchar. And then. what do we do about learning 
from what other countries have done? You know, I know one of 
the things they've talked about is actually allowing for one 
pilot to nap if the other one's awake, and they have done 
things like that. Is that in the works? Does that controlled-
napping idea, does that make any sense for longer flights?
    Mr. Voss. Yes, absolutely, we are supporting that very much 
in the Foundation. Since 1994, I believe, is when the first 
airline started doing this sort of controlled-napping, and it's 
found to be a very effective countermeasure. When you try to do 
everything right, but you still end up with a fatigued crew 
because of weather or whatever happens, this is a last-ditch 
effort. And it has proven to be a very safe procedure. And it 
has been adopted in many countries around the world.
    Senator Klobuchar. Ms. Gilligan?
    Ms. Gilligan. Yes, ma'am.
    Senator Klobuchar. Just follow up on some of these 
questions with the reimbursements, this idea of actually more 
stress on pilots, whether we call them ``regional'' or not, but 
that have shorter flights. And then, also this idea of, Should 
we look at this controlled-napping?
    Ms. Gilligan. As Mr. Voss indicated, the ARC did recommend 
that we consider both the time of day when the pilot begins 
their schedule, as well as the number of operations or segments 
that they'll fly, as part of, sort of, a sliding scale of how 
many hours of duty time and flight time they should be 
permitted. However, the ARC did not agree on exactly how many 
hours of flight time and duty time that ought to allow, and 
that is what we are in the midst of now analyzing. But, the 
framework that they presented, and that we will be putting 
forward, will take into account the time of day. So, if you're 
flying at night, what they call ``back side of the clock,'' 
that may reduce the number of hours that you're available. If 
you have a high number of take-offs and landings, that may 
reduce the number of hours. We will seek comment on all of that 
to understand better how to accommodate those factors that can 
contribute to fatigue.
    On the issue of controlled rest, we have not issued 
standards for that. We have not proposed to permit that. And at 
this point, I do not expect that we will be proposing that. As 
Captain Prater pointed out, we believe that the crew needs to 
come to work prepared for the schedule that they are 
undertaking. Additionally, we believe that we can manage and 
mitigate their fatigue through the new regulations sufficiently 
that they should be alert throughout that flight.
    Senator Klobuchar. All right. Thank you very much, I 
appreciate it.
    Ms. Gilligan. Thank you.
    Senator Dorgan. Senator Snowe.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman.
    Ms. Gilligan----
    Ms. Gilligan. Yes, ma'am.
    Senator Snowe.--obviously, we hope that the FAA is going to 
move expeditiously on this proposed rulemaking. I think it's 
essential. It's obviously languished for more than a half a 
century, and it has been on the National Transportation Safety 
Board's Most Wanted List since 1990. So, clearly, this is an 
issue that deserves immediate attention. And I think you've 
given all the testimony that has been presented to this 
committee in the factors of fatigue.
    To follow up on the question that Senator LeMieux made with 
respect to commutes, many of the regional airlines obviously 
have pilots that commute long distances. In fact, one of the 
regional carriers has, you know, a quarter of their crew that 
commute more than 1,000 miles. How are you factoring that into 
the rulemaking? Is that going to be something that's going to 
be part of the rulemaking process next year in some way that--
and contributes to fatigue?
    Ms. Gilligan. That is an issue that, as I mentioned, the 
Aviation Rulemaking Committee did not recommend we make changes 
to. They recommended that we continue to see commuting as a 
pilot responsibility, as Captain Prater indicated. We are still 
considering whether there are additional elements that we can 
or should regulate. And that may well be a part of our 
proposal. We've not yet completed that part of our analysis. 
But, either way, we will be asking for comment on whether there 
are additional regulatory requirements that should be put in 
place related to commuting.
    Senator Snowe. Captain Prater, how do you see the FAA 
addressing this question--if at all? I mean, do you see it 
essential to addressing this commuter issue?
    Mr. Prater. If anything, I believe that--you know, as I 
stated before, I do believe that it is a personal 
responsibility thrust upon you by the circumstances. You could 
live in your base, and the next day your base is closed, and 
you're expected to fly out of New York instead of Cincinnati. 
You've got three kids in school, you just can't do it 
overnight. Most regional carriers don't pay for paid moves. I 
know pilots who have had five base changes in 1 year. You just 
can't move. So, it's not a whole lot different than many jobs 
in our society, except on the other end of it, we have to be in 
command of that cockpit.
    So, it does start with personal responsibility. I think, if 
anything, when those circumstances--the carrier must ensure 
that the pilot is able to get to work with the least amount of 
hassle at all. It's no different than flying from St. Louis to 
D.C. to begin your workday here. It's the same thing for us. 
But, it shouldn't take me 8 or 10 hours to fly from St. Louis 
to D.C. to start that work.
    So, there are things that could be done. But, I believe 
it'll be done more--unfortunately, maybe--but in the 
collective-bargaining arena, where we come up with the solution 
with our employers versus a mandate by the FAA.
    Senator Snowe. Well, do you think it's workable in what Ms. 
Gilligan mentioned, about the pilot and the operator making the 
decision, in terms of whether or not a pilot is fatigued, or 
too fatigued, to make the trip?
    Mr. Prater. I believe----
    Senator Snowe. I mean, I see the operators are most likely 
to resist the pressure from that situation, because obviously 
they need the pilot. So, it seems to me they'd be most likely--
--
    Mr. Prater. It's----
    Senator Snowe.--to come and make the wrong decision in that 
question, if a pilot is fatigued.
    Mr. Prater. You know, it comes down to our physical, that 
we take every 6 months. We have to determine, Are we fit to 
fly, that day? It doesn't matter whether I've got a cough or a 
cold or I didn't sleep last night because my baby cried all 
night. I have to make that decision. All we ask is the 
protection that the employer and--their responsibility under 
the regulation should be, ``You will accept--when a pilot calls 
in and says he or she is too fatigued to fly, you'll accept 
that call.''
    Senator Snowe. On another issue, I happened to run into an 
airline pilot last week, for a legacy carrier, and he was very 
much concerned about the lack of experience of pilots and 
copilots on these regional aircraft, with the requirement of 
300 hours of flight time compared to what he had, for example, 
as a commercial pilot, 3,000 hours of flight time. In fact, he 
was asked for some tips by the captain of one of these regional 
carriers on one flight, and the copilot wasn't even familiar 
with some of the issues that they were discussing. And he 
described it as ``scary.''
    So, I was wondering if I could have your views on that. If 
you combine the issue of fatigue, low salaries, lack of 
experience in the House of Representatives, for example, 
there's a piece of legislation that's being considered, a 1,500 
hours minimum requirement to become a commercial pilot--all of 
these amount to a potentially dangerous situation for 
passengers and pilots. Can you address that?
    Mr. Prater. Yes, ma'am. We are fully supportive of H.R. 
3371, and hope that the Senate will pick that up in the near 
future. It does raise the bar. It raises the bar for experience 
before a pilot can become an airline transport pilot in service 
of carrying passengers.
    Now, first of all, let me say, I believe that we're one of 
the most critical professions, on ourselves. You never have 
enough experience. The fact is that the captain--the senior 
captain sharing and discussing issues with that crew is not a 
bad thing. Two years ago, our economy was going in such a way 
that pilots were being hired right out of flight school, with 
250 to 350 hours. And it did show a crack. We can do better 
than that. It takes a lot more training at the airline level.
    But, again, training is expensive. Many airlines like to 
cut costs at every corner they can. That's one we can't. In 
fact, we need to expand some of the training requirements. And 
much of that is covered in that House legislation.
    Senator Snowe. I appreciate it.
    Thank you, Mr. Chairman.
    Senator Dorgan. Senator Snowe, thank you very much.
    So, Ms. Gilligan, let me bear in a little on this question 
of when, because, you know, the fact is, this issue has been 
around--the NTSB has had this on its most-wanted list for 19 
years. I appreciate the fact that you've started a process, 
that--but much more important is that you end the process. And 
you end the process with the kind of recommendations that are 
science-based, and that can be implemented, and that we don't 
have to have these hearings.
    So, you indicated that the time is now sliding. Not unusual 
with Federal agencies. But, disappointing in--given the 
circumstances we now face and the urgency with which we had 
communicated to the FAA that we want to move on this. Give me 
your best judgment about when those of us who are waiting for 
these recommendations and the implementation of new rules and 
regulations dealing with fatigue--when we can expect action.
    Ms. Gilligan. Yes, sir. The Administrator is finally 
committed to completing this project. I need to make that 
absolutely clear. I will certainly share that with you next 
week, when he appears here, as well. He's also committed to 
getting it right. This is an area in which he is personally 
knowledgeable, given his own experience as a pilot. And as we 
have presented to him the framework that the Aviation 
Rulemaking Committee provided, and the kinds of detailed 
specifics that we have to analyze, he has agreed that we need 
some additional time in order to make sure we get it right.
    We have committed to having our analysis completed by the 
end of January, a month later than we had hoped to complete it, 
and it will go into the final review, both within FAA and 
throughout the Administration. We have commitment from the 
Secretary to keep that review as short as we can keep it. And 
we will be working with the Office of Management and Budget in 
that same vein, as well.
    So, I can assure you the Administrator is fully committed 
to completing this notice and getting it out as quickly next 
year as we can.
    Senator Dorgan. But--thank you for the answer, but you have 
just described the FAA, OMB, DOT, all agencies that would have 
to take reasonably effective and expeditious action in order to 
get something in place here. And I've had too much experience 
with OMB, FAA, and DOT to believe that this works very well. 
And, because I referred to two aborted attempts in the 1990s to 
do this, and because I've referred to--I think--is it 19 years 
of being on the most-wanted list--you know, we're just out of 
patience here. So you're saying a month. This has slid a 
month--because I--let me ask it a different way.
    I assume that, when the FAA decided to embark on this and 
set a deadline, it is set--it set a deadline based on their 
judgment of doing it the right way. Now you're saying you need 
more time to do it the right way, but my guess is you would 
have set the deadline based on doing it the right way.
    Ms. Gilligan. Yes, sir. That was certainly our expectation. 
However, while the ARC gave us a good framework, they did not 
give us all the specifics that need to be included in the rule 
and that need to be fully analyzed so that we can present these 
for comment. I think the ARC members would acknowledge that 
they did not give specific recommendations, due to, to some 
extent, the time limits, as well as how complicated and 
difficult these issues are.
    As the Administrator said at that time, we are prepared to 
make these kinds of difficult and specific decisions. And those 
are the decisions that he is facing right now. And that 
requires some additional time.
    Senator Dorgan. I don't disagree at all. They are 
complicated, they are difficult. I understand all that. I 
just--I think--when I started, today, by citing the number of 
people who've lost their lives in the last 20 years or so 
because of accidents related to fatigue, and then understanding 
that we have this issue of fatigue in front of us and can't 
come to closure, I'm--what I'm going to do is--well, I will 
certainly ask the Administrator next week in some detail, but 
I'm going to write an official letter--and I assume my 
colleagues would join me on it--month after month as we go 
along here to find out, Where is it? When is it going to 
happen? Who has it now? How long do you expect them to have it? 
I'm going to write them, as well--OMB, DOT. We need to move on 
this.
    Ms. Gilligan. Yes, sir.
    Senator Dorgan. And we just need to get it done. It is 
complicated. But, you know, it's not like sending a person to 
the Moon. We can surely figure out what we need to do to 
address what Mr. Prater says is a ``dire problem.'' I happen to 
agree that it's dire, because--when I showed the charts over 
here today, I--you know, we're talking about crew rest and duty 
time, but I--also, my colleague Senator Snowe, I believe, 
talked about commuting. I don't know what we should do about 
commuting, but I think we should not ignore it. And I think, 
Ms. Gilligan, you've just indicated that this process will 
ignore commuting.
    Well, you know, again, in the Colgan crash, someone that 
flew all night long from Seattle, Washington, to finally get to 
a duty station, and then to hang around the lounge for a couple 
of hours, based on what we know--the investigation is not 
complete--that is not a pilot that is well rested in the 
cockpit. Aside from all the other questions, putting pilots and 
the copilots in the cockpit that didn't know what--had never 
trained on a stick pusher. Never trained on it, not even in--I 
mean, it's unbelievable to me. So, at least the piece that we 
can understand here, the piece that we can and should 
understand, is fatigue, if nothing else, and try to move as 
expeditiously as we can to address it.
    Now, let me--I want to ask a couple of other questions. 
This issue of napping.
    Ms. Gilligan. Yes.
    Senator Dorgan. The notion of solving the fatigue issue by 
taking naps in the cockpit, you know, I understand why someone 
might suggest that as an alternative. And perhaps some carriers 
overseas use it. But, I also understand Captain Prater's notion 
about this. And I have--I've flown airplanes very minimally. I 
mean, I flew when I was younger. But--very few hours--but I 
understand, in a cockpit, if you're napping and a bell or a 
whistle or a light goes off as an--some sort of emergency, you 
don't wake up from a nap, doing--just like that, to decide, 
``Here are the actions I take as an experienced, professional 
pilot with 200 people on the back. Here are the actions to take 
right now, in an emergency to address this.'' That's not what 
you do, waking up from a nap. You're drowsy. So, I don't 
understand this issue about solving a fatigue issue by napping.
    Mr. Voss. Mr.Barimo, you've advanced it, I guess.
    Mr. Barimo. Yes, I'm glad to elaborate. We don't view 
napping as a silver bullet for fatigue. It's one of the many 
tools in that FRMS toolbox. So, airlines would not build 
schedules that incorporate napping as a requirement to complete 
a trip. It's a way to manage fatigue as it arises, on a real-
time basis. And it's, we think, a smarter approach, managing 
that napping process, than allowing things to evolve the way 
they have previously, where you run the risk, potentially, of 
both pilots falling asleep. We think there's a way to do it. We 
believe that NASA has done adequate research into this. And 
Bill Voss is certainly the expert, but it is one of the many 
tools that get factored into this new equation. And that's the 
beauty of FRMS, it allows you to take tools like this, like 
napping facilities on the ground, break rooms and sleep rooms, 
and incorporate them all into a comprehensive program that 
really helps you more effectively manage risk.
    Senator Dorgan. Mr. Voss.
    Mr. Voss. Yes, thank you. I'm suggesting, again, there are 
layers that have to be applied here. The first layer is, we 
have to make the rules better in the first place so that people 
show up to work--have the opportunity to show up to work--
rested. And people have to live up to their responsibility to 
do so and show up to work rested.
    Then, last, in the event that all of our best efforts are 
spoiled by the realities of the world, weather and everything 
else, and somebody needs to take a rest--you put one last layer 
of defense in and have a controlled procedure where they can 
obtain that rest. It would just be used as an exception, not as 
a rule.
    Thank you.
    Senator Dorgan. I'm going to call on Senator Lautenberg, 
but, Mr. Prater, you want to respond to that?
    Mr. Prater. I think I addressed it adequately. Again, you 
couldn't prevent a nap if a pilot is that tired, but it has got 
to be a last-ditch effort so that you can at least feel good 
enough on the other end. The trick we used to use, when I was 
flying all-nighters, was, about 5 minutes before landing, to 
bite into a fresh-cut lemon to give you such a jolt that you 
would wake up and be able to apply it. That's pushing the human 
body way too far. And we don't need that. That's what we need 
the underlying rules for.
    Senator Dorgan. Senator Lautenberg.
    Senator Lautenberg. Yes. Ms. Gilligan----
    Ms. Gilligan. Yes, sir.
    Senator Lautenberg.--the Chairman's questions about when 
the report might be done were questions that I was going to 
talk about, as well. But, I think that ground has been covered.
    The thing that I would suggest, when you talk to the 
Chairman--talk to Mr. Babbitt--one of the things that we've not 
discussed is safety, in totality. We're discussing a part of 
what's required. Another part is to make sure that the towers 
are in the condition that they should be. And when I look at 
the schedules for manning, and I see Newark Liberty is--
staffing standard there is 40; they have 26, plus 8 trainees. 
Kennedy Airport, 37 full time--24 are there, 15 trainees. And 
so it goes. And I think that one of the questions that I'd like 
us to review when Mr. Babbitt's here is, What are they doing in 
contemplation of the retirements, et cetera, and including the 
staffing levels right now?
    The other thing, Mr. Barimo, do you think that $20,000 a 
year is an acceptable salary for someone who has the 
responsibilities of pilots?
    Mr. Barimo. Senator Lautenberg, what I would say is that 
seniority is king in the airline industry. And what that means 
is that salary is negotiated between the union and the company. 
It generally favors the more senior pilots. What we're talking 
about is a pay scale that starts fairly low and ends fairly 
high. There are certainly ways to level that out and have 
pilots coming in earn more and pilots at the senior end earn a 
little bit less. There are ways to do that, again, that's a 
negotiated element. It's an issue that has certainly been at 
the forefront of many discussions. But, again, it's an element 
that's negotiated between the airline and the union.
    Senator Lautenberg. Yes, I know that. And I don't mean to 
be impatient, but the simple question is whether or not someone 
making $20,000 a year, and particularly with those that have to 
commute distances--and I've met lots of pilots who drive 150 
miles from their home to get to their flight--so that--the 
question is whether or not--with the responsibility that is 
inherent in the job, whether $20,000 is a decent salary. 
Because many times there will be a second job that these folks 
have to take in order to keep their heads above water, and that 
plays a terrific role in establishing stress or fatigue, 
whichever is the factor. But, it is an invasion of good 
sensibility.
    Mr. Barimo. Senator, what I'd offer is that airlines are 
subject to the requirements of FAR Part 121, whether they're 
commuter airlines or mainline carriers. There is one set of----
    Senator Lautenberg. But, there's no--they don't--but, they 
don't recommend their own salaries----
    Mr. Barimo. There's one set of recommendations. Airlines 
prepare pilots to operate the equipment that they're flying. 
And it's irrespective of the amount of money that the pilot 
gets paid.
    Senator Lautenberg. OK. Well----
    Mr. Barimo. It's the same requirement.
    Senator Lautenberg. --you said something--you said 
``seniority dictates.'' If I was home on a particular day, I 
would have seen an airplane pass my window on its way to 
landing in the Hudson River. That's--the building I live in, in 
New Jersey, is right on the river, and it's about the height 
that I live coming down from--where the pilot had to head for 
lower altitude. Captain Chesley ``Sully'' Sullenberger, the 
pilot for U.S. Airways flight 1549, known as ``The miracle on 
the Hudson,'' said, in a hearing in the House earlier this 
year, that his pay has been cut 40 percent in recent years, and 
he started a consulting business to maintain a middle-class 
standard of living. This was a guy with terrific experience 
and, obviously, great skills.
    So, I think we're at a point in time when we're going to 
have to say that there are certain standards that must be met. 
And I don't know how to implement them. That's not my job here. 
My job is to make sure that, whatever we do, we have the safety 
of the public protected as--to whatever extent we can possibly 
do it. And again, we've all admitted that safety record's 
pretty good. But, there are possibilities that are relatively 
high risk that we should avoid.
    And I would say this, when we're looking at salaries and we 
look at what's happening in the regional, Captain Prater, 
versus the majors, the regionals are doing pretty well, in 
terms of profitability. SkyWest made $200 million in the year 
up to 2009--2008-2009. American Eagle made $122 million. 
Express Mesa made $16 million. Pinnacle Colgan made $76 
million. So, what's to say that they should exert themselves a 
little bit, in terms of trying to attract the best that they 
can get, and, once they get them, to keep them alert and 
satisfied with their job and paying attention to the minutest 
detail that they have to. And now, at a--particularly when jobs 
are too few, Mr. Barimo, that it simply can't be left to a 
negotiation, I don't think----
    Mr. Barimo. Right.
    Senator Lautenberg.--between the union and the company, 
because people want to work. But, their willingness to work has 
to be accompanied by an ability to be as skillful, as alert, 
and as in command as they can be. Do you agree?
    Mr. Barimo. I certainly agree.
    Senator Lautenberg. OK. I wasn't sure. There was the bit of 
silence that I heard.
    Mr. Barimo. The industry has taken a beating since 
September. It has impacted every employee in the industry, not 
just pilots.
    You mentioned a few airlines posting profits. What I will 
say is that the industry, as a whole, continues to lose 
billions of dollars each year. So, I would be hesitant to view 
a couple of data points that show up in the black, as an 
indication that the industry is performing well.
    Senator Lautenberg. Well, I'll tell you, when it's a 
commodity like air travel, there may have to be a look-back at 
where we were at one time in our history and say, ``Just 
because you can raise some money to start a new airline doesn't 
mean that you ought to be in the industry,'' when we are paying 
for the whole infrastructure--the FAA and airport development, 
et cetera, et cetera. So, we're not going to have time, nor the 
ability, right now to examine that question in its entirety, 
but it's one, in my view, that ought to be examined.
    Thanks very much, to all of you. Very interesting 
testimony, and valuable. Thank you.
    Thanks, Mr. Chairman.
    Senator Dorgan. Senator Lautenberg, thank you very much.
    Let me ask a question about--Ms. Gilligan, let's assume 
that your recommendations are done, OMB sees them come in the 
door and says, ``You know what, we're going to work on this 
quickly and move it out.'' DOT says, ``God bless you for all 
your work. We see this, and we're a Federal agency, we intend 
to get things turned around quickly.'' And all of a sudden, we 
have this process complete.
    Now, turn just for a moment to a circumstance that has 
prodded us to do more work in this area. That is, the Colgan 
crash. And the right-seat pilot flew from Seattle to Memphis--I 
believe deadheaded on a--I think it was a FedEx plane--and then 
flew to LaGuardia. And the pilot flew from Florida up to 
LaGuardia. There's no evidence of either them having a hotel 
room for rest purposes. There's evidence of both being in a 
crew rest lounge of some type. Evidence that the left-seat 
pilot was doing e-mails through a fair part of the night. So, 
it appears to me, with respect to whatever caused that crash--
perhaps pilot/copilot not understanding what a ``stick pusher'' 
means--pulling the nose up and stalling the plane rather than 
having that nose pushed down because of ice, and restoring your 
airspeed and so on--it's entirely possible that a portion of 
what caused that crash was fatigue. Assuming that everything 
that you are doing is done, and we are all ready to announce 
significant progress for the first time in many, many years, 
how will it--or how would it have affected the circumstances of 
the pilot and the copilot I've just described, both of whom 
flew a fair piece across the country and without any evidence 
of having rest prior to the flight on that regional carrier?
    Ms. Gilligan. Sir, I think, as we've heard a lot, there 
will always be a responsibility for the pilots to manage their 
rest periods appropriately. The rule will offer an opportunity 
for rest with sufficient time to sleep, consistent with what 
the signs of fatigue tells us, which is that you should sleep 7 
to 8 hours a night. At the end of the day, the pilots will then 
have to take responsibility for assuring that they take 
advantage of that rest opportunity in a way that prepares them 
to report to work. They will always have that responsibility. 
And the operator will have the responsibility to determine that 
the crew member is, in fact, prepared to work at that time.
    The regulatory framework can only set, just that, the 
framework that allows for the operator and the pilot to 
properly prepare themselves to provide safe transportation.
    Senator Dorgan. I understand the responsibility of the 
pilot. That's the responsibility of a professional to himself 
or herself in the profession, and the responsibility to the 
passengers they're transporting. What I don't quite understand 
is, when we finish this whole process, nothing will have 
changed with respect to the circumstances that existed in that 
cockpit with respect to fatigue, if it existed as a part of the 
cause of this crash, because--if we have the chart that shows 
the Colgan commutes.
    We know that something significant has changed with respect 
to air travel in this country. And I'll describe it just this 
way. In--if you'll put that down for just a moment--in North 
Dakota, where I grew up, the airlines that served our capital 
city were Republic, a regional carrier--but that--but, they 
didn't fly small planes; they flew DC-9s and 737s, and so on--
Western Airlines, Northwest Airlines, and Frontier Airlines. 
All of them flew jets--737s, 727s, and DC9s. And my guess is 
that people in the cockpit, three--a three-member crew in the 
727s by the way, and two-member crew in the others--my guess is 
that there wasn't somebody in a right seat with any one of 
those carriers, 30 years ago, that was being paid the 
equivalent of today's $18,000 or $20,000 a year. It just wasn't 
the case.
    Then what happened is, our system morphed into something 
different. Those carriers merged and merged and merged again, 
became much larger, and then created a network of regional 
carriers that flew smaller equipment and had a different system 
for hiring outside of the trunk carriers. And so, we now have 
developed a system where one-half of the flights and one-fourth 
of the passengers are carried in circumstances where you have 
less experience in the cockpit.
    And one of the other things that has happened, especially 
in the last couple of decades as we've morphed into this new 
system, is this chart, which shows that everybody's commuting 
everywhere.
    Now, it shouldn't be lost on any of us, including Captain 
Prater--you're a pilot--and it shouldn't be lost on us that 
this chart is demonstration of a significant potential problem. 
You've got people, whose work station is on the East Coast, 
flying from all over the country just to get to a station where 
they should go to work.
    And, Ms. Gilligan, what you are saying, and what some 
others have said, is, ``Well, you know what. It's their 
responsibility.'' Well, let me ask the obvious question. Atlas 
Air, for example, a cargo company, they were having problems 
attracting qualified pilots, and so they instituted what was 
called a ``Gateway Travel Program.'' Been very successful. They 
actually pay commuting pilots to come to their duty station, 
and they provide hotel accommodations overnight for them. And 
they require them to be there for an overnight. This--that's 
how one cargo company decided to do it.
    If you're going to have people, living in Seattle or Los 
Angeles, working out of New York, the question is,`` How do you 
make that happen? How does that work?'' And my great concern 
is--and I'm not suggesting that people shouldn't commute; I am 
suggesting that if you're going to have this kind of 
substantial commuting, you'd better understand that you're 
going to have some problems related to it, with respect to 
fatigue, unless the carriers and the pilots get there and have 
rest and find a bed, go to sleep, and show up in that cockpit 
fully rested.
    That was not the case in the Colgan plane, with all due 
respect. I've read the transcripts. I understand at least 
enough of the facts to understand, neither of those pilots, I 
believe--and I--again, and I feel bad, because they're not with 
us and not able to defend themselves--but, it appears to me, 
neither of them had a night's sleep. And I just--when we're 
done with this issue, Ms. Gilligan, I don't think we will have 
altered the circumstances that allowed that to exist. And 
somehow, I think we must.
    Ms. Gilligan. Well, sir----
    Senator Dorgan. Your response?
    Ms. Gilligan. --as I mentioned, the Aviation Rulemaking 
Committee did not make recommendations in this area. It is an 
area that we are looking at to see just how the Federal 
Government might address this in a regulatory framework. As you 
suggest, it can be difficult. As Captain Prater suggests, 
people drive from Fredericksburg to work in Washington, D.C. at 
DCA, and that's a long drive. That is not the same as flying. 
How to approach it is hard. But, we know that we do need to 
address it. And whether we should address it in the rule itself 
or in guidance in training materials for the pilots and for the 
airlines, we have not yet completely reached that conclusion. 
But, we agree with you. It is a risk factor that must be 
addressed, both by the airline and by the pilot.
    Senator Dorgan. It just seems to me that would be a better 
time, or a more appropriate or more required time, to do it 
than now, when you're actually addressing fatigue in the 
cockpit?
    Ms. Gilligan. Yes, sir.
    Senator Dorgan. And, Mr. Prater, my guess is--you run a 
pilots organization and you're going to want to say, ``You know 
what, they have a right to commute wherever they want to 
commute from. They have a responsibility to get some rest 
before they fly.'' I understand all that. But, do you believe 
that there's simply no issue here, no problem at all with this 
substantial amount of commuting that is--that has morphed into 
this--particularly the regional carriers, and the trunk 
carriers, in recent decades?
    Mr. Prater. I would not say there is not an issue, sir. 
There is an issue. And I give you our commitment that we'll 
continue to work with, not only the FAA, but with our 
employers, to find the solution to these problems. This is the 
reality. The reality is that the workforce has become very 
mobile, none more so than ours. And the fact is that the 
companies keep moving the flying around. I've said, they--the 
regional carriers, especially, they lose a contract and all of 
a sudden people who have lived in Cincinnati for 20 years, 
flying out of their home base, now have to commute, overnight. 
Those type of decisions are going on throughout our system.
    So, we need to do a better job working with our carriers to 
make sure that pilots, if they have to fly to get to work, 
they're able to do so quickly, easily. It's a mirror image, if 
you will, of the Atlas program that you identified. NetJets, 
other operators, cargo operators, do the same thing. FedEx, 
UPS, they get their pilots to where they pick up their flight. 
It may be overseas, sir. So, there are systems out there, and 
we can do a better job, both as a union and as our employers 
and the associations that represent them, ensuring that the 
pilots show up ready to go.
    Senator Dorgan. Mr. Voss, do you think the commuting is a 
part of this issue?
    Mr. Voss. Thank you, Mr. Chairman. Yes, clearly, commuting 
sets up a situation where things can go wrong. And we've seen 
some things go wrong. And so, I think what we have here is a 
problem. But, it's a difficult problem to deal with in a 
regulatory format. Clearly, there has to be an obligation for 
the airline to provide the opportunity for rest. And, of 
course, then there's the--they have to take that opportunity 
up.
    I think the--a long-term way to look at this, though, is 
the fatigue risk management system we talked about, but haven't 
explained well. It puts a lot of sensors into the operation; 
and so, tells you if you have a problem on a given set of 
segments because of tired pilots or poorly trained pilots or 
other things. You need to be able to look at the data from your 
operation, and deal with it, and put in place the mitigations. 
Maybe it's an improved rest facility and so on. But, those are 
the type of things we need to do. That's why I am such a 
supporter of the data-driven and more sophisticated approaches 
that we can take in this industry.
    Senator Dorgan. All right. Mr. Barimo, you have a response?
    Mr. Barimo. I would just reiterate that, as Captain Prater 
said, commuting is a part of the commercial airline business 
today. We're much smarter today, and we're getting smarter each 
day, when it comes to fatigue management. I think we have a 
challenge before us in how to factor commuting into fatigue 
management. I think we recognize that as an issue, and we're 
committed to resolving it, however that turns out to be.
    Senator Dorgan. But, you--in some ways, this is like 
looking at a picture and not seeing it. You know, the three of 
you suggest that commuting is a part of an issue here, part of 
a problem. What Ms. Gilligan and the FAA is going to give us, 
at some point, is something that doesn't address that. And it 
just seems to me that all of these things relate to the 
circumstances that we know cause additional risk.
    You know, from the hearings I have held--I was on a 
regional carrier a while back, and I happen to know, from the 
hearings, of the type of training that particular carrier did 
with their regional. They have identical training requirements, 
and they own the regional, and they--so, I sort of felt, well, 
this is an interesting carrier. Identical to the trunk carrier 
in training in every respect. On the other hand, my guess is, 
Captain Prater, if you fly regionals, you might get on one 
sometime--and you know a little more about it than some 
others--and see people in the cockpit that have a few hundred 
hours, and wonder if they're able to handle this plane as well 
as I am, speaking of yourself, with all the experience you 
have.
    A lot of things have changed, with respect to regionals. 
They are a very important part of our air transportation 
system. We need them. But, we need to make sure that we're 
dealing with the issues that relate to--the issues that have 
become self-evident to us in recent years.
    The issue of fatigue is not just a regional issue. The 
issue of fatigue relates to every cockpit everywhere and how we 
address that.
    Ms. Gilligan, I have not meant to ``heckter'' you, with 
respect to----
    Ms. Gilligan. No, not at all.
    Senator Dorgan.--but, I do intend to in the future----
    [Laughter.]
    Ms. Gilligan. I'll look forward to it.
    Senator Dorgan.--because it is very important. Randy 
Babbitt is a new administrator with a great deal of promise, in 
my judgment. He knows the industry. He has spent a lot of time 
in the air, commanding airplanes. And I have high hopes for 
some excellent work coming out of the FAA. And that will 
include your work and many others. But, it is essential that we 
consider these things urgent, based on what we now know--or 
``dire,'' as the Captain indicated. And it's essential that it 
be science-based. But, it's essential, after all of these 
years, all of these many, many years and lives that have been 
lost, it's essential that we get this done. And so, I'm going 
to be--in my part of the country, we call it a ``bur under the 
saddle,'' but I'm really going to keep pushing, because we need 
to get this done.
    I appreciate that--we've gone a little longer, but I 
appreciate the fact that all four of you have come to testify. 
We'll have the Administrator here next week----
    Ms. Gilligan. Yes, sir.
    Senator Dorgan.--and begin to reach, I think, some 
conclusion on some of these issues.
    And I hope, Ms. Gilligan--and I will write to the 
Administrator--I hope also to talk at some length about 
commuting, with the Administrator, in addition to the other 
fatigue issues.
    Let me thank you very much.
    And this hearing is adjourned.
    [Whereupon, at 11:57 a.m., the hearing was adjourned.]
                            A P P E N D I X

          Prepared Statement of the Cargo Airline Association
    On December 1, 2009, the Aviation Operations, Safety, and Security 
Subcommittee of the Committee on Commerce, Science and Transportation 
held a hearing to examine the issue of pilot fatigue and the status of 
the FAA Rulemaking on Flight Crewmember Duty and Rest Requirements.
    The Cargo Airline Association (the ``Association'') \1\ did not 
testify at that hearing, but, as a full participant in the FAA's 
Aviation Rulemaking Committee (ARC) which was chartered to examine this 
issue, is extremely interested in the outcome of this process. Several 
comments made at this hearing, however, raise concerns that need to be 
addressed.\2\
---------------------------------------------------------------------------
    \1\ The Cargo Airline Association is the organization representing 
the interests of the United States all-cargo air carrier industry. U.S. 
airline members are: ABX Air, Atlas Air, Capital Cargo International, 
FedEx Express, Kalitta Air and UPS Airlines.
    \2\ The Association has no intention of repeating its comments made 
to the FAA in the course of the ARC. Those comments are on file with 
the FAA and have been provided to Committee Staff. Rather, the brief 
comments below only relate to the testimony presented on December 1, 
2009.
---------------------------------------------------------------------------
    First, in her written testimony, Margaret Gilligan, FAA Associate 
Administrator for Aviation Safety, stated that ``. . . differing 
regulations for different types of operations are inconsistent and 
complex, and can be easily misunderstood, especially when a pilot can 
be assigned to different types of operations. The different rules 
developed over time, as the aviation industry changed and expanded. 
While such variance in the rules may have been justified when they were 
first adopted, these differences may no longer be valid in today's 
operational environment. Our rulemaking will address this.'' Testimony, 
p. 3.
    While the Association recognizes the need to update the current 
regulations which have been developed over a number of years and have 
been subject to several legal interpretations, any implication that a 
``one size fits all'' solution to pilot fatigue is simply incorrect. As 
a practical matter, today's aviation marketplace is comprised of 
various industry segments, with different operating characteristics 
driven by the underlying business model and different opportunities for 
crewmembers to rest. For example, the time it takes to sort and load 
cargo onto an all-cargo aircraft at a hub facility allows time for 
crewmembers to rest. Similarly, security concerns at certain foreign 
airports would make it imprudent to schedule overnight stays; rest can 
better be addressed through on-board rest accommodation and other 
means. Those unique differences must be taken into consideration. 
Indeed, FAA Administrator Randy Babbitt, at an ALPA Safety Forum on 
August 5, 2009, specifically noted that ``In rulemaking, not only does 
one size not fit all, but it's unsafe to think that it can.'' In 
addition, during the course of the ARC, FAA representatives 
specifically recognized the different characteristics of the all-cargo 
industry and invited the Cargo Airline Association to submit a cargo-
specific proposal. Therefore, any notion that the all-cargo carriers 
are asking for a ``carve out'' from the rulemaking is simply false.
    Faced with these realities, all-cargo interests cannot be simply 
subsumed into a ``one size fits all'' rule, but rather must be 
separately considered, taking into account the operational 
characteristics on this industry segment. That is not to say that the 
FAA must have separate sets of regulations. Rather, the FAA can and 
should apply a common framework to the rules to avoid confusion and 
thus reducing the need to issue legal interpretations, but also 
recognizing differing operational and environmental characteristics.
    Another subject that generated significant comment at the December 
1 hearing was the subject of ``commuting''. While everyone agrees that 
flight crews must present themselves for service in a fit condition, 
there appears to be significant disagreement on the FAA's role in 
assuring that flight crews are not fatigued when they report for duty. 
Although there were statements that the ARC did not recommend any FAA 
action in this area, the Association submission (which was transmitted 
to the FAA as part of the ARC recommendation) did, in fact, address 
this issue. Indeed, an entire section entitled ``The FAA Must Address 
Pre-Duty Required Rest'' was included in the Association proposal, with 
the notation that ``. . . any regulations covering flight/duty 
limitations and rest requirements must also address pre-duty required 
rest of individual flight crewmembers and put teeth into the FAA's 
enforcement of crewmember responsibility to report to work fit for 
duty''. Association Submission, p. 26. During the hearing, the FAA 
repeatedly said the delay in the rulemaking process and its subsequent 
later than expected release was largely due to the ARC not addressing 
commuting.
    The Association appreciated the opportunity to participate in the 
ARC process and looks forward to filing comments when the Notice of 
Proposed Rulemaking is issued. If the Subcommittee needs any further 
information, please do not hesitate to contact us.
                                 ______
                                 
          Prepared Statement of Ronald N. Priddy, President, 
                National Air Carrier Association (NACA)
    The National Air Carrier Association (NACA), a member of the recent 
Federal Aviation Administration (FAA) Flight and Duty Time Limitations 
and Rest Requirements Aviation Rulemaking Committee (ARC), appreciates 
the opportunity to present written testimony for the record of the 
hearing on ``Aviation Safety: Pilot Fatigue'' which was held on 
December 1, 2009.
    NACA,\1\ founded in 1963, is comprised of 11 air carriers that fill 
a unique niche in the air carrier industry offering low cost scheduled 
air transportation as well as non-scheduled all-cargo and passenger air 
transportation worldwide. While diverse in our operations, all members 
operate under the same high safety standards and requirements as the 
major scheduled airlines, 14 CFR Part 121. In addition to providing 
significant, leading edge air transportation for customers and 
commercial partners on most every continent, all of NACA member air 
carriers are partners with the U.S. Department of Defense (DOD) in the 
Civil Reserve Air Fleet (CRAF) program. We provide significant lift 
capacity for our soldiers and their cargo in support of U.S. DoD 
missions around the globe. On any given day, NACA member airlines are 
providing the majority of the civil air transportation in support of 
Operation Enduring Freedom in Afghanistan and Operation. Iraqi Freedom.
---------------------------------------------------------------------------
    \1\ NACA carriers include: Air Transport International, Allegiant 
Air, Atlas Air, Miami Air International, North American Airlines, Omni 
Air International, Ryan Air International, Southern Air, Sun Country 
Airlines, USA3000 Airlines and World Airways.
---------------------------------------------------------------------------
    NACA member airlines support science-based changes to the FAA 
flight, duty and rest regulations. We have participated in every 
aviation rulemaking committee (ARC) on this subject since the early 
1990s. We were instrumental in the changes that produced the cabin 
attendant duty and rest regulations in 1994. Since then, we have 
participated in each of the FAA duty and rest related ARCs. When 
consensus in those ARCs did not materialize, the NACA Board of 
Directors invited then FAA Administrator, Jane Garvey, to NACA's 
offices in May 2002 and appealed to her to get on with the rulemaking. 
We recommended fatigue mitigating regulations based upon flight duty 
period limitations, not on flight time. We included deadhead time and 
all non-commercial (Part 91) flying in our proposal, in addition to a 
regulation for reserve crewmember duty and rest. We were disappointed 
the SNPRM did not materialize, and we have willingly participated in 
the current ARC efforts. Representatives from approximately half of our 
member airlines participated as principals or as observers of one or 
more ARC sessions.
    However, we are particularly concerned to now have the FAA witness 
in these hearings, Ms. Peggy Gilligan, state in her public testimony 
that they are crafting a ``one-size-fits-all'' regulatory approach. 
This is contrary to the recommendations of all the Nation's airlines in 
strong written statements submitted as final ARC proposals from the Air 
Transport Association of America, the Cargo Airline Association, NACA 
and the Regional Airline Association opposing a ``one-size-fits all'' 
approach. This is also contrary to the public statements made by the 
Administrator, in a speech delivered to the Air Line Pilots Association 
Safety Forum in which, referencing the work of this ARC that was 
underway and the rulemaking process in general, he stated ``Nil 
rulemaking, not only does one size not fit all, but it's unsafe to 
think that it can.'' See, ``We Can't Regulate Professionalism,'' 
remarks of Administrator Randy Babbitt before ALFA Safety Forum, August 
5, 2009. His statement bears repetition for this Senate Subcommittee, 
``one size does not fit all.'' While there was little consensus in the 
ARC beyond a science-based regulation, ``one-size-fits-all'' is 
contrary to the process and advice many participants represented in the 
ARC. Not only is it ``unsafe to think that'', as the Administrator 
stated, an inflexible set of FAA flight duty period and rest 
restrictions, versus flexible regulations, threaten much of today's 
nonscheduled all-cargo and passenger operations that are safely 
operating under 14 CFR 121, Subpart S. Furthermore, it could have 
significant impacts on national security, as all DOD commercial charter 
air transportion must operate under the individual air carrier's full 
DOT and FAA certification; its operation specifications; and the 
incumbent safety and regulatory standards. More than 90 per cent of the 
passenger capability and more than 40 per cent of the all-cargo 
capability for defense mobility is supplied by U.S. air carrier members 
of the Civil Reserve Air Fleet. Flexibility is critical. Unless the 
``size'' is large and flexible, one-size-fits-all will only support 
scheduled operations.
    This is not about the cost of hiring more pilots or any other 
financial consideration. This is about safely and prudently sustaining 
the regulatory infrastructure to conduct these non-scheduled operations 
on a worldwide basis. It is about continued leadership of U.S. airlines 
in an extremely competitive environment, where we are already the 
safest segment of the world's airline industry. It is also about 
national security.
    Concerning fatigue science, most fatigue scientists state that 
prescriptive regulations are not the solution to fatigue mitigation in 
air transportation. A number of those scientists worked together to 
prepare a position paper for the American Medical Association. It 
states, ``The prescriptive rule-making approach commonly used by 
regulatory agencies to regulate crew rest and flight and duty times is 
not derived from the foundational scientific research addressing the 
interaction of sleep and circadian processes and their effects on 
performance.\2\
---------------------------------------------------------------------------
    \2\ Caldwell, J. A., Mallis, M. M., Caldwell, J. L., Paul, M. A., 
Miller, J. C., Neri, D. F., Aerospace Medical Association Aerospace 
Fatigue Countermeasures Subcommittee of the Human Factors Committee . 
Fatigue Countermeasures in Aviation. Aviat Space Environ Med 2009; 
80:29-59, p. 33.
---------------------------------------------------------------------------
    NACA, with its commitment to resolving safety issues, including 
those resulting from fatigue, supports a requirement for each airline 
to have a FAA approved Fatigue Risk Management System (FRMS). That FRMS 
and strategy should be part of an individual air carrier's FAA approved 
safety management system (SMS). To that end, NACA has hired world 
renowned fatigue scientist Dr. E. Curtis Graber to advise us on those 
strategies. To date, the program would include a commitment by senior 
management, schedulers, dispatchers and pilots to FRMS. It would 
include fatigue training programs for all involved; suggested personal 
strategies for pilots for sleep and fatigue mitigation; crew scheduling 
and dispatch strategies for assuring robust sleep opportunities; 
cockpit resource management training tailored to fatigue mitigation, 
including a recommendation to FAA to permit controlled rest on the 
flight deck; and a continuous audit process for identifying fatigue 
vulnerabilities.
    Finally, we want to comment about commuting. We agree with the 
Committee, that is the unknown in this whole discussion about pilot 
fatigue. It was virtually taken off the table for discussion in the 
ARC. We recommend it be formally addressed.
                                 ______
                                 
        Prepared Statement of Captain Paul Onorato, President, 
                Coalition of Airline Pilots Associations
    Chairman Dorgan, members of the Committee, on behalf of the 28,000 
pilots who fly for the member associations of the Coalition of Airline 
Pilots Associations (CAPA), we want to thank you for the opportunity to 
comment on the issue of pilot fatigue. CAPA has been working on fatigue 
and flight and duty time issues since its inception in 1997 and we 
appreciate your holding this important hearing to lay the issues on the 
table.
    The National Transportation Safety Board (NTSB) puts fatigue near 
the top of its most wanted list. ``The Safety Board has long been 
concerned about the effects of fatigue on persons performing critical 
functions in all transportation industries including flight crews.'' We 
agree wholeheartedly with NTSB. The need to address pilot fatigue is 
long overdue. There is no more critical safety issue before the FAA and 
the time to address it is now.
    CAPA recently held three seats on the FAA Aviation Rulemaking 
Committee (ARC) on Flight and Duty time and Rest Requirements, which 
focused on reducing fatigue for pilots in commercial aviation. As such, 
CAPA supports the adoption of a science based approach to new 
regulations on duty time, the primary factor in fatigue and flight 
time, a secondary factor related to time on task and workload.
    We have worked closely with the FAA on these issues and look 
forward to seeing the new regulations shortly. While we have made very 
specific recommendations to the ARC regarding flight and duty 
limitations, one important principal stands out for the pilot members 
of CAPA--An increase in the current flight or duty times in any given 
block of time throughout the day is simply unacceptable. CAPA cannot 
agree to any policy change that would claim to address fatigue by 
allowing pilots to fly more hours in any in a scheduled duty day time 
than current rules stipulate.
    CAPA strongly supports a minimum 8 hour sleep opportunity in a rest 
period that includes travel time. A rest period that includes travel 
time should not be confused with actual sleep opportunity and needs to 
be 11 to 12 hours at a minimum to provide a real opportunity for 8 
hours of sleep. A minimum of 10 hours at the rest facility would be 
another good way to define the minimum rest period. We also believe 
that regulations that include adequate recovery rest after ``disruptive 
duty'' which includes daytime rest, night flying, time zone crossings, 
and circadian instability. Essentially, any work schedule that does not 
allow a pilot to sleep during his normal sleep cycle is ``disruptive 
duty.''
    CAPA supports adequate prescriptive preflight rest for all 
operations, which would include prescriptive rest for all reserve 
crewmembers as well as relief pilot/augmentation guidelines that 
consider the quality of the onboard rest facility in determining the 
allowable extension to flight and duty times.
    CAPA has thousands of cargo pilots amongst its members and does not 
support any carve out for cargo operations. CAPA is firm in its belief 
in ``One Level of Safety'' for all commercial flight operations and no 
science supports different regulations based on what the aircraft are 
carrying i.e., passengers or cargo.
    CAPA does not support cockpit napping and believes that properly 
regulated flight and duty time limits will eliminate the need for naps. 
Complex commercial aircraft are certified for two pilots that require 
more multi-tasking than one pilot can safely accomplish on a regular 
basis. A second pilot is also part of the greatest safety protection--
redundancy. Everything on the aircraft has redundant back-up systems in 
the event of failure and backup systems are not ``rested'' but are 
ready to go at a moment's notice. In any emergency the flying pilot 
continues to fly while the monitoring pilot accomplishes procedures 
required by an emergency checklist including shutting down failed 
engines in the event of fire or catastrophic failure. If a pilot is 
needed to go from napping to performing, science has proven that 
approximately 20 minutes is needed to overcome ``sleep inertia.'' A 
napping pilot would not know if the other pilot has become 
incapacitated.
    The issue of commuting has come into the public's eye as a result 
of the Continental Connection Flight 3407 accident investigation. While 
commuting is an unusual situation to those outside of the aviation 
industry, it has become an accepted and normal practice within the 
industry. One of the root causes of the increase in commuting is the 
result of the extreme instability of airline employment. A junior pilot 
literally waits on each month's system bid to find out where he/she 
will be based next. Moving every time the airline decides to change 
your domicile is an impossible situation both from a financial and 
practical viewpoint. Airline pilots have learned how to adapt to these 
conditions. In CAPA's view, the perceived problem with commuting is 
another symptom of the race to the bottom in pilot compensation, 
qualification and experience. The primary reason commuting hasn't come 
under fire until recently is that airlines have dramatically reduced 
the qualifications and compensation of new hire pilots, and prior to 
those economic measures, commuting was done by choice--not necessity, 
and thus was not as widespread, nor as much of a problem. These changes 
have brought inexperienced pilots to the industry who do not possess 
the judgment, experience, or the means to self police their own rest 
needs.
    Rather than trying to legislate a new lifestyle for aviation 
professionals, CAPA supports another approach. We strongly support the 
requirement that all pilots working in Part 121 commercial aviation--
Captains and First Officers alike, have an FAA Airline Transport 
Pilot's certificate (ATP). This would require a minimum of 1,500 hours 
of flight time in a myriad of conditions and would assure that 
professionalism is in the cockpit is increased. Senator Charles Schumer 
has introduced S. 1744, which would require that all pilots have an ATP 
as a minimum condition for employment with commercial Part 121 
carriers. We strongly support Sen. Schumer's bill and urge this 
committee to consider it as a part of the FAA Reauthorization package. 
If we take such steps to ensure that professional pilots are flying in 
both seats in the cockpit, we can solve the key problems with commuting 
and many other issues within the industry.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                          to Margaret Gilligan
    Question 1. In what ways should the new flight and duty time rules 
be changed to reflect modern fatigue research?
    Answer. In developing the new flight and duty time rules, the FAA 
tasked its Aviation Rulemaking Committee (ARC) with considering current 
fatigue science and information on fatigue, as well as international 
standards for flight time limitations. The ARC considered human 
physiology, including the biological requirement for sleep; the effect 
of task-related factors, such as workload or duration of the duty 
period, on fatigue; and the effect of circadian rhythm on fatigue.
    Other international standards have already addressed these issues 
and provided the ARC with examples of fatigue countermeasures that 
address them. The ARC is specifically considering:

  <bullet> Structuring rest periods so crewmembers receive 8 hours of 
        sleep opportunity in each 24 hours;

  <bullet> Providing an extended rest period weekly to recover from 
        cumulative fatigue;

  <bullet> Limiting the length of a duty period;

  <bullet> Considering other duties that may contribute to fatigue as 
        part of the duty period;

  <bullet> Reducing the length of a duty period, based on encroachment 
        into a crewmember's Window of Circadian Low (WOCL) or the 
        number of flight segments flown during the duty period;

  <bullet> Extending the length of a duty period, based on the quality 
        of an in-flight rest opportunity;

  <bullet> Providing cumulative limits on flight time and duty periods 
        to prevent cumulative fatigue.

    Question 2. Do you believe that training and repositioning flights 
should count toward a pilot's flight time under the rule regulating the 
number of flight hours a pilot may perform in a day?
    Answer. Yes. Training and repositioning flights should count toward 
a pilot's flight time under the rule regulating the number of flight 
hours a pilot may perform in a day. Fatigue science identifies ``time 
on task'' as one of the factors likely to affect a person's fatigue. 
``Time on task'' is the length of time a person has been continuously 
performing a job without a break. Additionally, ``time awake'' since a 
last major sleep opportunity contributes to fatigue. Both ``time on 
task'' and ``time awake'' could be affected by including training and 
repositioning flights in a pilot's schedule. Other international 
standards do consider other duties, such as training and repositioning 
flights, toward total flight duty period or duty period limitations; 
but not daily flight time limitations.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                           to William R. Voss
    Question 1. In what ways should the new flight and duty time rules 
be changed to reflect modern fatigue research?
    Answer. The rules should be updated in two specific areas. First 
the rules have to reflect human performance and the time of day. We now 
know that it is radically different dealing with fatigue when a pilot 
is operating on the ``backside of the clock'' or his nighttime cycle. 
Second, it is critical that the regulation address the overall work 
period that may extend across several days. We now know for a fact that 
fatigue is cumulative, so we must guard against cumulative effects of 
things such as multiple early morning wake-ups and so on.

    Question 2. Do you believe that training and repositioning flights 
should count toward a pilot's flight time under the rule regulating the 
number of flight hours a pilot may perform in a day?
    Answer. Yes, fatigue is not tied to revenue. A pilot gets just as 
tired when he or she is flying for free as when they are on the clock.

                                  <all>

</pre></body></html>
